<html>
<title> - BOOTS ON THE GROUND OR EYES IN THE SKY: HOW BEST TO UTILIZE THE NATIONAL GUARD TO ACHIEVE OPERATIONAL CONTROL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






    BOOTS ON THE GROUND OR EYES IN THE SKY: HOW BEST TO UTILIZE THE 
             NATIONAL GUARD TO ACHIEVE OPERATIONAL CONTROL

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2012

                               __________

                           Serial No. 112-83

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

77-378 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop SSOP, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                               Witnesses

Mr. Paul N. Stockton, Assistant Secretary of Defense for Homeland 
  Defense and Americas' Security Affairs, Office of Under 
  Secretary of Defense for Policy, U.S. Department of Defense:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Ronald D. Vitiello, Deputy Chief of Border Patrol, U.S. 
  Customs & Border Protection, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    14
  Joint Prepared Statement.......................................    16
Mr. Martin E. Vaughan, Executive Director, Southwest Region, 
  Office of Air and Marine, U.S. Customs & Border Protection, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................    19
  Joint Prepared Statement.......................................    16
Mr. John Nichols, Adjutant General, Texas National Guard:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Brian J. Lepore, Director, Defense Capabilities and 
  Management, U.S. Government Accountability Office:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28

                                Appendix

Questions From Ranking Member Sheila Jackson Lee for Martin E. 
  Vaughan........................................................    51

 
    BOOTS ON THE GROUND OR EYES IN THE SKY: HOW BEST TO UTILIZE THE 
             NATIONAL GUARD TO ACHIEVE OPERATIONAL CONTROL

                              ----------                              


                        Tuesday, April 17, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    [Due to technical issues, portions of the hearing were 
inaudible. Every effort has been made to ensure the accuracy of 
this transcript.]
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Quayle, Duncan, Cuellar, 
and Jackson Lee.
    Also present: Representative Gosar.
    Mrs. Miller. Good morning. The Committee on Homeland 
Security, our Subcommittee on Border and Maritime Security will 
come to order. The subcommittee is meeting today to hear 
testimony on the topic of ``Boots on the Ground or Eyes in the 
Sky: How Best To Utilize the National Guard To Achieve 
Operational Control.'' I would recognize myself for an opening 
statement.
    For almost 25 years, the Department of Defense has been a 
key partner in supporting the Border Patrol's efforts to secure 
the Nation's southwest and maritime borders, and has worked 
tirelessly to prevent illicit drugs and illegal immigrants from 
crossing our borders, so I would like to first thank the men 
and women from the Department of Defense, as well as within the 
Department of Homeland Security who have contributed to the 
security of our homeland.
    The reality is that our physical border, the actual line in 
the sand, should not be the first line of defense--it should be 
part of a layered approach to border security that begins 
overseas.
    We should use every tool of National power to detect, 
deter, and prevent drug and human smugglers, as well as others 
who would do us harm, from ever getting to the border. The 
Department of Defense has, and I suspect, will continue to play 
an important role to help us secure the border into the future.
    Over the last few years, National Guardsmen and women have 
been used to help build fencing, identify border crossers, and 
provide additional manpower, allowing the Border Patrol 
sufficient time to recruit, hire, and train additional agents, 
and are now patrolling the skies over Arizona and Texas in 
search of illegal activity.
    DOD's support has been a tremendous force multiplier in our 
efforts to help secure the border.
    Earlier this year we witnessed a transition in the role and 
scope of the Department of Defense's support from National 
Guard soldiers on the ground, assisting the Border Patrol 
primarily as entry identification teams--providing additional 
sets of eyes and ears on the border--to an aviation-centered 
approach that provides aerial surveillance to the Border Patrol 
agents on the ground.
    I am happy to report that National Guard units from across 
the Nation have answered the call and have sent helicopters and 
personnel to support the Southwest Border mission. These 
operations are not just the responsibility of the four 
Southwest Border States--this is a National mission and it is 
appropriate that everyone pitch in to share the burden.
    The purpose of this hearing is to examine the transition 
from ground troops to aviation support and explore the impact 
on our border security operations.
    The taxpayers spent $158 million dollars to have 1,200 
National Guard Troops on the border from July 2010 to December 
2011--not an insignificant sum. Now, DOD plans to spend an 
additional $60 million dollars during 2012 for the current 
aviation support activities. This begs the question: Is the 
expenditure of this kind of money bringing the security results 
the American people rightly demand?
    To that point, I have been requesting the Border Patrol 
update a comprehensive, long-term, whole-of-Government, 
strategy to secure the border. However, without such a 
comprehensive plan, the American people may be on the hook for 
more spending that is a result of short-term thinking that 
doesn't move the ball forward and make the border more secure 
in the long run.
    For example, DOD's aviation support to the Border Patrol is 
currently slated to end at the end of this calendar year, but 
it's clear that CBP Air and Marine will need to fill the void 
that will be left when the National Guard aviation support 
winds down in order to support the Border Patrol on a more 
permanent basis.
    We cannot merely surge National Guard assets, our citizen 
soldiers and their helicopters and planes, to the border for a 
year and simply expect that whatever gains are made during that 
year won't disappear the moment that these assets return home 
unless we have a post-surge plan to sustain operations and 
maintain operational control of the border.
    National Guard troops on the ground were always designed to 
be a bridge to more Border Patrol agents, but in this case, the 
CBP Air and Marine budget doesn't seem to suggest that we are 
making similar enhancements to recapitalize CBP's Aviation 
asset to make sure DHS has the assets it needs once the Guard 
mission ends. I am concerned that once the National Guard 
aviation support winds down, a capability gap will grow even 
larger.
    Ad hoc planning and short-term band-aids should be replaced 
by a well-thought-out plan that takes into account CBP Air and 
Marine and the Border Patrol's capability needs.
    It is beyond comprehension why we haven't thought about a 
long-term plan to provide this aviation support which is 
obviously making a a large impact helping the Border Patrol 
secure the Southwest Border.
    I look forward to hearing from the witnesses about their 
long-term plan for aviation support along our borders.
    I have said on many occasions that the Department of 
Homeland Security needs to be honest and forthright with this 
Congress and tell us what your needs are--Congress' job is to 
prioritize to those needs.
    We have more than 21,000 Border Patrol agents Nation-wide--
double what we had in 2004--and spent a great deal of money on 
fencing and infrastructure, but we cannot help if we're in the 
dark about your needs.
    The goal of the Border Patrol is, and should always be, to 
use our limited resources to gain and maintain operational 
control of the border using personnel, air assets, and 
intelligence to ensure the security of the Nation's borders--
the National Guard's role should be supporting our ability to 
do just that when needed.
    Here in this committee we have debated the use and meaning 
of operational control, and I'm fully cognizant that the 
Department views it as an archaic term of art, but it is a 
statutorily-defined term that we will continue to use until the 
Department releases a new, verifiable, and comprehensive 
measurement that accurately gauges our progress on the border--
my hope is that CBP will release their new measurement system 
soon.
    I applaud the use of the National Guard to support existing 
CBP Air and Marine capabilities which I believe is a great 
example of DOD and DHS working together to achieve a National 
goal--a more secure border. However, ad hoc, short-term 
operational planning and thinking must be replaced by a 
comprehensive strategy to secure the border--the American 
people will not accept anything less.
    [The statement of Chairwoman Miller follows:]
               Statement of Chairwoman Candice S. Miller
                             April 17, 2012
    For almost 25 years, the Department of Defense has been a key 
partner in supporting the Border Patrol's efforts to secure the 
Nation's southwest and maritime borders, and has worked tirelessly to 
prevent illicit drugs and illegal immigrants from crossing our borders, 
so I would like to first thank the men and women from the Department of 
Defense, as well as within the Department of Homeland Security who have 
contributed to the security of our Homeland.
    The reality is that our physical border, the actual line in the 
sand, should not be the first line of defense--it should be part of a 
layered approach to border security that begins overseas.
    We should use every tool of National power to detect, deter, and 
prevent drug and human smugglers, as well as others who would do us 
harm, from ever getting to the border. The Department of Defense has, 
and I suspect, will continue to play an important role to help us 
secure the border into the future.
    Over the last few years, National Guardsmen and women have been 
used to help build fencing, identify border crossers, and provide 
additional manpower, allowing the Border Patrol sufficient time to 
recruit, hire, and train additional agents, and are now patrolling the 
skies over Arizona and Texas in search of illegal activity.
    DOD's support has been a tremendous force multiplier in our efforts 
to help secure the border.
    Earlier this year we witnessed a transition in the role and scope 
of the Department of Defense's support from National Guard soldiers on 
the ground, assisting the Border Patrol primarily as entry 
identification teams--providing additional sets of eyes and ears on the 
border--to an aviation-centered approach that provides aerial 
surveillance to the Border Patrol agents on the ground.
    I am happy to report that National Guard units from across the 
Nation have answered the call and have sent helicopters and personnel 
to support the Southwest Border mission. These operations are not just 
the responsibility of the four Southwest Border States--this is a 
National mission and it is appropriate that everyone pitch in to share 
the burden.
    The purpose of this hearing is to examine the transition from 
ground troops to aviation support and explore the impact on our border 
security operations.
    The taxpayers spent $158 million dollars to have 1,200 National 
Guard Troops on the border from July 2010 to December 2011--not an 
insignificant sum. Now, DOD plans to spend an additional $60 million 
dollars during 2012 for the current aviation support activities. This 
begs the question: Is the expenditure of this kind of money bringing 
the security results the American people rightly demand?
    To that point, I have been requesting the Border Patrol update a 
comprehensive, long-term, whole-of-Government, strategy to secure the 
border. However, without such a comprehensive plan, the American people 
may be on the hook for more spending that is a result of short-term 
thinking that doesn't move the ball forward and make the border more 
secure in the long run.
    For example, DOD's aviation support to the Border Patrol is 
currently slated to end at the end of this calendar year, but it's 
clear that CBP Air and Marine will need to fill the void that will be 
left when the National Guard aviation support winds down in order to 
support the Border Patrol on a more permanent basis.
    We cannot merely surge National Guard assets, our citizen soldiers 
and their helicopters and planes, to the border for a year and simply 
expect that whatever gains are made during that year won't disappear 
the moment that these assets return home unless we have a post-surge 
plan to sustain operations and maintain operational control of the 
border.
    National Guard troops on the ground were always designed to be a 
bridge to more Border Patrol agents, but in this case, the CBP Air and 
Marine budget doesn't seem to suggest that we are making similar 
enhancements to recapitalize CBP's Aviation asset to make sure DHS has 
the assets it needs once the Guard mission ends. I am concerned that 
once the National Guard aviation support winds down, a capability gap 
will grow even larger.
    Ad hoc planning and short-term band-aids should be replaced by a 
well-thought-out plan that takes into account CBP Air and Marine and 
the Border Patrol's capability needs.
    It is beyond comprehension why we haven't thought about a long-term 
plan to provide this aviation support which is obviously making a a 
large impact helping the Border Patrol secure the Southwest Border.
    I look forward to hearing from the witnesses about their long-term 
plan for aviation support along our borders.
    I have said on many occasions that the Department of Homeland 
Security needs to be honest and forthright with this Congress and tell 
us what your needs are--Congress' job is to prioritize to those needs.
    We have more than 21,000 Border Patrol agents Nation-wide--double 
what we had in 2004--and spent a great deal of money on fencing and 
infrastructure, but we cannot help if we're in the dark about your 
needs.
    The goal of the Border Patrol is, and should always be, to use our 
limited resources to gain and maintain operational control of the 
border using personnel, air assets, and intelligence to ensure the 
security of the Nation's borders--the National Guard's role should be 
supporting our ability to do just that when needed.
    Here in this committee we have debated the use and meaning of 
operational control, and I'm fully cognizant that the Department views 
it as an archaic term of art, but it is a statutorily-defined term that 
we will continue to use until the Department releases a new, 
verifiable, and comprehensive measurement that accurately gauges our 
progress on the border--my hope is that CBP will release their new 
measurement system soon.
    I applaud the use of the National Guard to support existing CBP Air 
and Marine capabilities which I believe is a great example of DOD and 
DHS working together to achieve a National goal--a more secure border. 
However, ad hoc, short-term operational planning and thinking must be 
replaced by a comprehensive strategy to secure the border--the American 
people will not accept anything less.

    Mrs. Miller. At this time, Chairwoman now recognizes the 
Ranking Member of the subcommittee, the gentleman from Texas, 
Mr. Cuellar, for his opening statement.
    Mr. Cuellar. Thank you, Madam Chairwoman. I am pleased that 
the subcommittee is meeting today to examine the issue of using 
the National Guard to help secure America's Southern Border.
    In recent years the Department of Homeland Security, with 
support from Congress, has taken critical steps to deter and 
interdict undocumented individuals and narcotics from entering 
our country.
    More remains to be done, however.
    To that point, I support the partnership between the 
Department of Homeland Security and Department of Defense aimed 
at providing aerial surveillance support for U.S. Customs and 
Border Protection along the Southern Border.
    Since 2006, I have supported the National Guard's presence 
along the U.S.-Mexico border because I believe it has been a 
critical component for CBP's mission to protect and secure our 
borders.
    Now, with record-high Border Patrol agent staffing levels 
and low unauthorized immigrant apprehension rates, I believe we 
need to start looking at more cost-effective and efficient ways 
to spend our homeland security dollars.
    I am particularly pleased that one of the focus areas of 
the new partnership is the Rio Grand Valley Sectors; 
specifically, the placement of aviation assets in Laredo since 
February.
    I want it to be noted that National Guard's presence on the 
border does not constitute militarizing the border, nor would I 
support such a measure, because I do not believe it is in the 
best interest of the United States.
    However, I do believe our local, State, and Federal law 
enforcement agents will benefit greatly by the decision to 
shift the National Guard's mission to a multi-layered aerial 
surveillance approach.
    Also, an increase in DHS's use of multi-purpose aerial 
assets equipped with the latest surveillance and reconnaissance 
capabilities will ensure that the proper assets are available 
and accessible to help carry out our border strategy.
    The National Guard's new aerial support will provide ``eyes 
in the sky'' that will increase Border Patrol's response 
capabilities, allowing them to quickly move from one location 
to another to address emerging threats of illegal activity.
    This hearing will also allow us to address concerns about 
the impact of budget cuts to basic mission support activities 
within CBP's Office of Air and Marine. As we all know the 
Office of Air Marine ensures that CBP has air surveillance and 
interdiction capabilities.
    Unfortunately, the fiscal year 2013 budget requests a 52% 
reduction in the Office of Air and Marine's air and marine 
procurement accounts.
    This type of reduction is particularly troubling as it 
comes at a time when DHS is looking to maximize its available 
resources.
    I believe that the more we can tap into cutting-edge 
technologies to support our agents, the better prepared they 
will be to protect our border communities.
    I thank Chairman Miller for holding this hearing and the 
witnesses for joining us today.
    [The statement of Ranking Member Cuellar follows:]
               Statement of Ranking Member Henry Cuellar
                             April 17, 2012
    I am pleased that the subcommittee is meeting today to examine the 
issue of using the National Guard to help secure America's Southern 
Border.
    In recent years the Department of Homeland Security, with support 
from Congress, has taken critical steps to deter and interdict 
undocumented individuals and narcotics from entering our country.
    More remains to be done, however.
    To that point, I support the partnership between the Department of 
Homeland Security and Department of Defense aimed at providing aerial 
surveillance support for U.S. Customs and Border Protection along the 
Southern Border.
    Since 2006, I have supported the National Guard's presence along 
the U.S.-Mexico border because I believe it has been a critical 
component for CBP's mission to protect and secure our borders.
    Now, with record-high Border Patrol agent staffing levels and low 
unauthorized immigrant apprehension rates, I believe we need to start 
looking at more cost-effective and efficient ways to spend our homeland 
security dollars.
    I am particularly pleased that one of the focus areas of the new 
partnership is the Rio Grand Valley Sectors; specifically, the 
placement of aviation assets in Laredo since February.
    I want it to be noted that National Guard's presence on the border 
does not constitute militarizing the border, nor would I support such a 
measure, because I do not believe it is in the best interest of the 
United States.
    However, I do believe our local, State, and Federal law enforcement 
agents will benefit greatly by the decision to shift the National 
Guard's mission to a multi-layered aerial surveillance approach.
    Also, an increase in DHS's use of multi-purpose aerial assets 
equipped with the latest surveillance and reconnaissance capabilities 
will ensure that the proper assets are available and accessible to help 
carry out our border strategy.
    The National Guard's new aerial support will provide ``eyes in the 
sky'' that will increase Border Patrol's response capabilities, 
allowing them to quickly move from one location to another to address 
emerging threats of illegal activity.
    This hearing will also allow us to address concerns about the 
impact of budget cuts to basic mission support activities within CBP's 
Office of Air and Marine. As we all know the Office of Air Marine 
ensures that CBP has air surveillance and interdiction capabilities.
    Unfortunately, the fiscal year 2013 budget requests a 52% reduction 
in the Office of Air and Marine's air and marine procurement accounts.
    This type of reduction is particularly troubling as it comes at a 
time when DHS is looking to maximize its available resources.
    I believe that the more we can tap into cutting-edge technologies 
to support our agents, the better prepared they will be to protect our 
border communities.
    I thank Chairman Miller for holding this hearing and the witnesses 
for joining us today.

    Mrs. Miller. Members of the committee are reminded that 
additional statements may be submitted for the record. I now 
recognize our first witness, Mr. Paul Stockton.

 STATEMENT OF PAUL N. STOCKTON, ASSISTANT SECRETARY OF DEFENSE 
FOR HOMELAND DEFENSE AND AMERICAS' SECURITY AFFAIRS, OFFICE OF 
   UNDER SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF 
                            DEFENSE

    Mr. Stockton. Thank you, Chairwoman Miller, Ranking Member 
Cuellar, and distinguished Members of the committee. I 
appreciate the opportunity today to discuss the Department's 
support to National efforts to secure the Southwest Border of 
the United States.
    Rather than read my prepared statement to you, I would like 
to offer some very specific thoughts on the topic of today's 
hearing. That is the degree to which to shift in focus, the 
shift in the way in which we provide support to CBP, provides 
for a more cost-effective means of supporting DHS, CBP, and the 
Nation on the Southwest Border.
    The transition to air support--the strategic move that adds 
mobile, advance, surveillance, and reconnaissance capabilities 
to the Border Patrol's own organic capabilities--shifting to 
aerial surveillance assets versus relying on fixed-entry 
identification teams, which was the primary focus of our 
previous support mission, offers a number of advantages that I 
will briefly summarize.
    First of all, Chairwoman Miller, the adversary is smart and 
adaptive. One of the challenges of relying on fixed-entry 
identification teams is that they are indeed fixed. By shifting 
to aerial reconnaissance and surveillance, by enabling our 
assets to move along the border, we are able to adapt to 
changes in the routes that traffickers will use in order to 
seek illegal entry into the United States.
    Second, by making this shift we have a better ability to 
deal with terrain features--hills, other terrain features--
where if you are in a fixed entry identification team you have 
inherent limitations in your field of vision. If you are flying 
airborne surveillance and reconnaissance, that offers some very 
important advantages as well.
    I think that adds to another factor I would like to 
emphasize and that is the deterrence factor. Rather than 
knowing, as our adversary will, where fixed entry 
identification teams are located, the fact that we are now 
relying more and supporting our CB partners--with aerial assets 
that move around, that they can't know in advance where they 
are going to be conducting operations--that provides for a 
deterrent factor that I believe is very important to the 
continued success of CBP in driving down the number of illegal 
crossers.
    Then finally, I point out that we have, from a perspective 
of supporting CBP, much faster response times. When you are in 
integrated efforts to share information, we understand that our 
adversary is moving to a new track for entryway we will devote 
assets to that in a way that not only get our assets there. But 
when our aerial surveillance and monitoring enables us to 
transmit the data on attempted illegal crossers to our CBP 
partners, we are then able very quickly to ensure that agents 
go to those areas in question.
    I would add also that from a Department of Defense 
perspective, looking at our primary responsibilities, including 
our Title 10 responsibilities to defend our Nation's interests 
abroad, conducting these kinds of aerial surveillance and 
monitoring activities, ensuring that we have the kind of 
information-sharing and integration that we need with the CBP 
and amongst our own capabilities with the National Guard, this 
helps prepare us for our warfighting and other missions abroad.
    So, there is direct training value to the United States 
Department of Defense from these kinds of activities, which is 
very important to us as well.
    Let me just add that I had a trip, Congressman Cuellar, as 
you know, to your district, where I had a chance to meet with 
the adjutant general and his staff. I have to say, General, I 
was so impressed with the way that your team, your leadership 
team, was stepping up to the plate and effectively implementing 
the transition from the previous support mission to the current 
calendar year 2012 one. I learned a great deal, and I came away 
impressed with the professionalism and dedication, and 
extraordinary competence of your team.
    Let me add also that in my prepared testimony I note that 
there are a range of ways in which the Department of Defense 
supports our efforts along the border--our National efforts 
along the border. One of the important ones is our domestic 
preparedness support initiative that enables the Department of 
Defense to transfer critical technology and capabilities from 
the Department of Defense to State and local law enforcement.
    Chairwoman Miller, Raking Member Cuellar, you know that it 
is a personal interest of me--it is a personal interest of 
mine--to support your State. Last year, the Department of 
Defense provided equipment worth more than $6 million to 
Michigan, and more than $9 million to Texas. That is just last 
year alone.
    This equipment included night vision goggles, binoculars, 
fingerprint scanners, vehicles--a broad range of capabilities 
that directly support the ability of local and State law 
enforcement to meet the challenges that your States and all 
others along both the Northern and Southern borders of the 
United States confront.
    I will be pleased to offer any additional thoughts in 
response to your questions, and thanks again for the honor to 
testify.
    [The prepared statement of Mr. Stockton follows:]
                 Prepared Statement of Paul N. Stockton
                             April 17, 2012
                              introduction
    Chairman Miller, Ranking Member Cuellar, distinguished Members of 
the subcommittee: Thank you for the opportunity to address you today on 
the Department of Defense's (DoD's) support to the National effort to 
secure the Southwest Border of the United States.
    Drug trafficking and related transnational organized crime presents 
a significant threat to our Nation. The movement of large amounts of 
drugs across our borders is the most immediate concern, but the 
potential for these drug smuggling networks to be used for infiltrating 
terrorists and weapons of mass destruction cannot be discounted. As 
such, countering drug trafficking across our borders and around the 
world is a National priority.
    As noted in the most recent National Southwest Border 
Counternarcotics Strategy:

``Illicit trafficking across the Southwest border continues to be a 
chronic threat to our Nation and one of the top homeland security 
priorities for the United States. Transnational criminal organizations 
in Mexico dominate the illegal drug supply chain, taking ownership of 
drug shipments after they depart South America and overseeing their 
transportation to market and distribution throughout the United States. 
It is estimated that approximately 90 percent of the cocaine that is 
destined for U.S. markets transits the Mexico/Central America corridor. 
Mexico is the primary foreign source of marijuana and methamphetamine 
destined for U.S. markets and is also a source and transit country for 
heroin. Transnational criminal organizations based in Mexico dominate 
the U.S. drug trade--not just in border areas, but throughout much of 
the Nation. These organizations also control the south-bound flow of 
drug-related bulk currency and illegal weapons.''\1\
---------------------------------------------------------------------------
    \1\ Office of National Drug Control Policy, 2011 National Southwest 
Border Counternarcotics Strategy, page 1.

    Over the past 2\1/2\ years, this administration has dedicated 
unprecedented resources to securing the Southwest Border. In March 
2009, President Obama launched the Southwest Border Initiative to bring 
focus and intensity to Southwest Border security, coupled with a 
reinvigorated, smart, and effective approach to enforcing immigration 
laws in the interior of our country. We are now more than 2 years into 
this strategy, and based on previous benchmarks set by Congress, it is 
clear that this approach is working. In fiscal year 2011, the 
Department of Homeland Security's Customs and Border Protection (CBP) 
seized more than $126 million in illegal currency and nearly 5 million 
pounds of narcotics Nation-wide. According to 2010 FBI crime reports, 
violent crimes in Southwest Border States have dropped by an average of 
40 percent in the last 2 decades, and some of the safest communities in 
the United States are at the border.
    Within the Department of Defense, I work closely with the Assistant 
Secretary for Special Operations and Low Intensity Conflict (SO/LIC), 
who is responsible for the Department's world-wide counternarcotics and 
global threats efforts. SO/LIC oversees DoD's use of the powerful tools 
entrusted to it by Congresses and Presidents over several decades, in 
the form of laws authorizing DoD to provide counterdrug support to 
Federal, State, local, and foreign law enforcement partners, conduct 
counterdrug detection and monitoring, support Colombia's unified 
campaign against narco-terrorism and provide limited, but often 
essential, counternarcotics support for counterterrorism task forces. 
When combined with the flexibility and responsiveness embodied in the 
specialized appropriations through the Drug Interdiction and 
Counterdrug Activities--Defense appropriation, DoD is able to help U.S. 
and foreign partners face the ruthless and highly adaptive 
transnational criminal organizations which threaten our country's 
security interests and the fundamental National security of some other 
countries.
    Today, my statement will focus on DoD support within the United 
States, but it is important to note that these efforts are tightly 
integrated with DoD and other U.S. security-related cooperation with 
Mexico, Canada, Central American countries and partner nations world-
wide as well as DoD support to U.S. law enforcement agencies' global 
activities.
                defense support for u.s. border security
    The Department of Homeland Security (DHS) is responsible for 
securing the borders, territorial waters, ports, terminals, waterways, 
and air, land, and sea transportation systems of the United States and 
preventing the entry of terrorists and the instruments of terrorism 
into the United States.\2\ The Department of Justice and other Federal 
departments and agencies, as well as State and local authorities, also 
play critical roles in their areas of jurisdiction, often cooperating 
through task forces or similar arrangements such as the High Intensity 
Drug Trafficking Areas (HIDTAs). DoD's role is to provide support, when 
requested, appropriate, lawful, and approved by the President or the 
Secretary of Defense or their designees. This support does not include 
law enforcement activities such as search and seizure or apprehension, 
arrest, or detention of individuals, which are generally prohibited by 
section 1385 of Title 18, U.S. Code (commonly referred to as the Posse 
Comitatus Act) and section 375 of Title 10, U.S. Code. When DoD support 
is carried out by Active Duty (Title 10) military forces under the laws 
specifically authorizing or funding DoD counterdrug activities, the 
Department concentrates its support on those militarily unique skills 
and capabilities that domestic law enforcement agencies lack, or cannot 
practically replicate. DoD Title 10 counterdrug support must also 
provide a training opportunity that contributes to combat readiness and 
cannot be used for continuing, on-going, long-term operational support 
commitments at the same location. These and other controls help ensure 
that U.S. military forces are always in a supporting role and never 
replace law enforcement personnel in roles that should be carried out 
by law enforcement and ensure that conducting these missions does not 
detract from the warfighting readiness of the United States.
---------------------------------------------------------------------------
    \2\ Section 202 of the Homeland Security Act of 2002 (Pub. L. No. 
107-296; section 202 of Title 6, U.S. Code).
---------------------------------------------------------------------------
    DoD has conducted a wide variety of counterdrug support missions 
along the Southwest Border since 1989. U.S. Northern Command's 
(USNORTHCOM's) Joint Task Force--North (JTF-North) and the National 
Guard are the primary military organizations through which DoD supports 
law enforcement counterdrug efforts within U.S. territory. That support 
to civilian law enforcement has included activities such as surface and 
aerial reconnaissance; minor construction; establishing tactical 
observation posts, training, engineering, intelligence analysis, 
communications support, planning, coordination, linguist support, and 
transportation. JTF-North can provide support to counterdrug law 
enforcement anywhere in the United States, but prioritizes the 
Southwest Border region. Military forces conduct these missions in 
order to enhance their own warfighting skills but do so in a way which 
also provides substantial benefit to counterdrug law enforcement.
    The National Guard supports the State Counterdrug Programs \3\ in 
all 54 States and territories. This support, under the direction of the 
State Governors, provides a force multiplier to State, local, and 
Tribal civilian law enforcement agencies in efforts against drugs and 
other transnational threats. Missions conducted under this program 
include: Criminal analyst support, technical support, and air/ground 
reconnaissance activities, as well as drug demand reduction support, 
and program management.
---------------------------------------------------------------------------
    \3\ Section 112 of Title 32, U.S. Code.
---------------------------------------------------------------------------
    Since September 11, 2001, policy and operational changes in DoD 
have improved the alignment of resources and efforts where there is a 
potential relationship between terrorism and narcotics trafficking. 
Congress recognized the relationship between drug trafficking and 
terrorism and included in the National Defense Authorization Act for 
Fiscal Year 2004 a provision that authorized DoD to expend funds 
appropriated for counter-drug activities also to support 
counterterrorism task forces under certain conditions.
    Since the terrorist attacks of September 11, 2001, DoD has 
significantly increased its support to law enforcement to counter drug 
trafficking or otherwise improve the security of U.S. borders, under a 
variety of legal authorities. Examples include:
  <bullet> March-August 2002.--DoD mobilized some 1,600 National Guard 
        personnel along the Northern and Southern Borders to support 
        the U.S. Customs Service, the Immigration and Naturalization 
        Service, and the Border Patrol, in their heightened post-9/11 
        security posture. Of these 1,600 personnel, 895 were detailed 
        to the Southwest Border States to provide port of entry 
        presence and cargo inspection, vehicle inspection, traffic 
        management, and pedestrian control support.
  <bullet> October 17, 2003-November 13, 2003.--DoD provided Unmanned 
        Aircraft System (UAS) support to DHS Immigration and Customs 
        Enforcement's (ICE's) Operation Safeguard, a humanitarian/law 
        enforcement effort along the Southwest Border. Operation 
        Safeguard provided an opportunity for DoD to demonstrate UAS 
        capabilities, as well as illustrate associated policy, legal, 
        and infrastructure issues, to border authorities.
  <bullet> June 18, 2004-September 30, 2004.--DoD provided UAS support 
        to the Arizona Border Control Initiative (ABCI), which sought 
        to detect illegal entry and smuggling/drug activity along the 
        Arizona-Mexico border, and to aid in the rescue of lost or 
        injured persons.
  <bullet> November 3, 2004-January 24, 2005.--DoD UAS supported the 
        ABCI.
  <bullet> September 2005.--DoD provided flight operations support at 
        Fort Huachuca, Arizona, for CBP UAS border enforcement 
        operations.
  <bullet> October-November 2005.--JTF-N supported CBP interdiction of 
        transnational threats in the El Paso Sector. This support 
        included multi-sensor operations (ground-based forward-looking 
        infrared, tactical unmanned aerial vehicles, ground sensors, 
        ground surveillance radars) in the Hidalgo, Grant, Luna, and 
        Dona Ana counties of New Mexico.
  <bullet> November 2005.--DoD provided 400 soldiers in a U.S. Army 
        Stryker-equipped cavalry squadron along the Mexico-New Mexico 
        border in support of the U.S. Border Patrol's Operation Western 
        Vigilance. The purpose of the mission was to enhance detection 
        and monitoring of drug smuggling and illegal immigration.
  <bullet> February 12, 2006-March 26, 2006.--JTF-N supported Operation 
        Gulf View, an interagency operation, jointly led by the U.S. 
        Border Patrol and U.S. Coast Guard, to disrupt infiltration of 
        transnational threats into the United States by increasing 
        maritime domain surveillance operations in the U.S. Border 
        Patrol's Rio Grande Valley Sector in southeast Texas. JTF-N 
        employed new DoD prototype maritime radar and software assets 
        that provided better detection and tracking of small vessels 
        and ships.
  <bullet> May 8-19, 2006.--JTF-N supported the U.S. Border Patrol in 
        the San Diego Sector with unattended ground sensors and 
        forward-looking infrared radar-equipped aviation to detect 
        smuggling traffic.
  <bullet> June 2006-July 2008.--DoD supported DHS in gaining effective 
        control of the Southwest Border in Operation Jump Start. From 
        June 2006 to July 2007, DoD, in coordination with the Governors 
        of the affected States, provided 6,000 National Guard 
        personnel, under the direction of the Southwest Border State 
        Governors, who supplied aviation, engineering, medical, entry 
        identification, communications, vehicle maintenance, and 
        administrative support to the CBP. From July 2007 to July 2008, 
        DoD, in coordination with the Governors of the affected States, 
        provided 3,000 National Guard personnel to support CBP. During 
        this 2-year period, CBP hired 3,000 new agents, detained 
        158,000 suspected illegal aliens, rescued 99 persons, and 
        seized more than 298,000 pounds of drugs. In addition, National 
        Guard units built more than 38 miles of fence, 96 miles of 
        vehicle barrier, and more than 19 miles of new all-weather 
        roads, and also repaired more than 700 miles of roads. This 
        operation cost DoD $1.2 billion.
  <bullet> October 15, 2011-September 30, 2012.--CBP requested two 14-
        day missions by the E-8C Joint Surveillance Target Attack Radar 
        System, or Joint STARS, in support of CBP Operation Nimbus II 
        and Operation Green Flash III. This support, which involves 74 
        active-duty military personnel from the 116th Air Control Wing, 
        provides aerial reconnaissance with detection and monitoring 
        authority in support along the entire Southwest Border.
  <bullet> February 15, 2012-April 15, 2012.--In support of CBP 
        Operation Nimbus II, DoD is providing detection and monitoring 
        by two C206 Cessna Caravan aircraft along Southwest Arizona; 
        ground surveillance vehicles and radar (476 active-duty 
        military personnel, 59 Stryker vehicles, 59 Long Range 
        Acquisition Systems (LRAS), and 14 Improved Target Acquisition 
        Systems (ITAS)) in the Tucson CBP Sector; four Shadow UAS (127 
        active duty military personnel and one RQ-7B system (four 
        Shadow aircraft)) in the Tucson CBP Sector; ground-based air 
        surveillance sensors (228 active duty military personnel, six 
        Sentinel radars, 20 Forward-Looking Infrared Radar systems, and 
        associated support) in the Tucson CBP Sector; and ground-based 
        air surveillance radars (five Lightweight Surveillance Target 
        Acquisition Radar (LSTAR) Systems) in the El Paso and Tucson 
        CBP Sectors.
    Collaboration also extends beyond our borders. For example, 
combined air and surface operations along the maritime drug lanes from 
South America to southern Mexico and the coastal approaches to the 
United States by the CBP, the U.S. Coast Guard, and the U.S. Navy had 
been instrumental in preventing bulk drugs from reaching Mexico and the 
Southwest Border.
    DoD operates the Tethered Aerostat Radar System (TARS) along the 
Southwest Border and in the Caribbean. These platforms provide 
counterdrug detection and monitoring capability along the U.S.-Mexico 
border, and the Florida Straits.
    The primary agencies using the TARS detection and monitoring data 
include U.S. Northern Command, the CBP (Air and Marine Operations 
Center and Caribbean Air and Marine Operations Center) and U.S. 
Southern Command, including Joint Interagency Task Force--South. In 
addition to its counterdrug mission, TARS data also supports North 
American Aerospace Defense Command's air sovereignty mission for the 
continental United States.
    DoD has supported U.S. Government efforts to enhance intelligence 
and information-sharing capabilities and processes associated with the 
Southwest Border. For instance, DoD provides analytical, training, and 
related support to the Border Intelligence Fusion Section (BIFS) at the 
El Paso Intelligence Center (EPIC) as an all-source, all-threats 
intelligence section to support tactical and operational efforts with 
fused intelligence and analysis and provide a common operational 
picture of the Southwest Border and Northern Mexico.
    Finally, DoD, consistent with the Department's Strategy for 
Homeland Defense and Civil Support, promotes the integration and 
sharing of applicable DoD capabilities, equipment, technologies, and 
technical expertise with Federal, State, local, Tribal, and private-
sector partners. This sharing arrangement strengthens the Nation's 
ability to respond to threats and domestic emergencies. DoD continues 
to work closely with its interagency partners, in particular DHS, to 
build capacity vertically from the Federal level down to the local 
level, and horizontally across the Federal Government. I want to thank 
Congress for providing DoD with the tools that are absolutely essential 
to making this possible.
    In accordance with Section 1401 of the Bob Stump National Defense 
Authorization Act for Fiscal Year 2003 (Public Law 107-314), I serve as 
the senior DoD official responsible for coordinating ``all Department 
of Defense efforts to identify, evaluate, deploy, and transfer to 
Federal, State, and local first responders technology items and 
equipment in support of homeland security.'' To this end, I established 
what I call the ``DoD Domestic Preparedness Support Initiative.'' 
Through this program, I work closely with DHS, DOJ, and our other 
Federal, State, and local partners on five approaches: Acquisition 
programs; excess property programs; equipment loan-lease programs; 
expertise sharing; and the leveraging of dual-use technologies 
developed by DoD.
    In September 1996, Congress authorized DoD to donate to Federal and 
State law enforcement agencies excess property suitable for use in 
counter-drug and counterterrorism activities.\4\ All 50 States and more 
than 17,000 Federal, State, and local agencies have received more than 
$2.6 billion \5\ worth of donated excess DoD equipment for use in 
counter-drug and counterterrorism activities--more than $710 million 
worth of equipment in fiscal years 2010 and 2011 alone. For fiscal year 
2012, DoD has already donated more than $221 million worth of equipment 
so far, including aircraft, weapons, vehicles, and body armor.
---------------------------------------------------------------------------
    \4\ 10 U.S.C.  2576a, which was enacted as part of section 1033 of 
the National Defense Authorization Act for Fiscal Year 1997 (Public Law 
104-201).
    \5\ Original Acquisition Value.
---------------------------------------------------------------------------
    DoD is also working closely with the National Association of State 
Agencies for Surplus Property (NASASP) to allow in-theater screening of 
potential excess property that could be of use to State and local 
agencies in Iraq and Afghanistan, as U.S. operations in those countries 
wind down.
    Chairman Miller, Ranking Member Cuellar, I want to thank you for 
inviting us to visit your wonderful States this last February. It was 
an excellent opportunity to extol the virtues of DoD's Domestic 
Preparedness Support Initiative to your State and local law enforcement 
officials. I am proud of the good work the initiative has accomplished 
in your States. In fiscal year 2011, the initiative provided equipment 
worth more than $6 million to Michigan and more than $9 million to 
Texas, including night-vision goggles, binoculars, fingerprint 
scanners, vehicles (e.g., cars, trucks, tractors, and loaders), tents 
and shelters, medical supplies, laptops, and weapons (e.g., pistols and 
rifles). I look forward to continuing the good works of the initiative 
in your States and all of the other States.
    DoD research and development have led to the production of many 
items that are now routinely used by our Federal, State, and local 
partners. DoD works closely with its partners to leverage potential 
``dual-use technologies'' originally developed for military application 
for civilian applications. As an example, DoD assisted the U.S. Coast 
Guard in evaluating sensors and platforms that could enhance its 
ability to conduct wide-area surveillance to detect, identify, and 
track vessels of interest. Likewise, in 2003, a Predator B UAS, 
scheduled for future delivery to DoD, operated in support of DHS/ICE 
Operation SAFEGUARD, a joint humanitarian/law enforcement effort along 
the Southwest Border. Operation SAFEGUARD provided an opportunity for 
DoD to demonstrate UAS capabilities to border authorities and also 
served to highlight the policy, legal, and infrastructure issues that 
must be examined in tandem with technology development. These include 
challenges associated with the use of UASs in controlled domestic 
airspace as well as the extensive infrastructure (e.g., communications, 
exploitation tools, and imagery analysts) required to process and 
exploit information collected by UASs. In addition, in 2008, DoD 
developed and installed a fiber optic-based seismic acoustic sensor 
prototype system in the San Diego area. In 2009, DHS purchased this 
system and continues to support its operational evaluation by the San 
Diego Tunnel Task Force. Also in 2009, DoD supported DHS's proof-of-
concept demonstration for an advanced ground penetrating radar 
technology for use in cross-border tunnel detection. The results of 
this demonstration warranted continued development and testing efforts 
in 2010 and 2011. Furthermore, DoD and DHS are cosponsoring a ``Tunnel 
Detection'' Joint Capability Technology Demonstration (JCTD). U.S. 
Northern Command is the DoD proponent for this demonstration, and as 
the technologies mature, they are expected to be fielded for use by DoD 
and DHS organizations at home and abroad.
    DoD's Counterterrorism Technical Support Office (CTTSO), which 
oversees the interagency Technical Support Working Group (TSWG) (85 
Federal departments and agencies, including DHS, DOJ, DOE, and the 
Department of Health and Human Services, work together to research and 
develop, test and evaluate, and deliver combating terrorism 
capabilities to the National interagency community rapidly \6\), is 
currently developing capabilities to detect, locate, monitor, and 
disrupt subterranean operations in semi-permissive and non-permissive 
environments to allow tactical forces to conduct operations and counter 
hostile and/or criminal networks. Current, CTTSO counter-tunnel 
projects of interest include:
---------------------------------------------------------------------------
    \6\ The bulk of TSWG core funding is provided by DoD. Additional 
funding is supplied by the Department of State, while other Federal 
departments and agencies share the costs of selected projects.
---------------------------------------------------------------------------
  <bullet> Portable Ground Penetrating Radar.--Battery-powered, man-
        portable, ruggedized system to detect subterranean structures 
        (tunnels, bunkers, and caches) to a minimum depth of 15 feet, 
        with antenna configuration to allow for operation by one person 
        and be employable in any terrain.
  <bullet> Improved Underground Communications.--A planned proof-of-
        concept involving multiple technology demonstrations, to 
        determine if further funding is warranted.
  <bullet> Remote Imaging and Detection of Underground Anomalies.--A 
        proven prototype that implements laser technology to identify 
        buried objects (e.g., caches and improvised explosive devices). 
        In fiscal year 2011, development of this prototype was expanded 
        to determine if the technology is capable of detecting voids.
  <bullet> Seismic-Acoustic Sensor Kit.--A mobile seismic acoustic 
        sensor system designed to detect underground activity with the 
        intent of easy temporary deployment and operation (although 
        permanent installation is also an option).
    The DoD Counternarcotics and Global Threats program also conducts 
research and development, as well as operational testing and 
evaluation, to adapt and apply military technology in ways that can 
help U.S. and foreign law enforcement partners, as well as to use 
technology and techniques developed by law enforcement agencies for 
military applications. Examples include tagging, tracking and locating 
devices, ``blue force'' (friendly force) tracking devices, 
communications system integration, and unattended sensors.
                     current national guard support
    The National Guard Counterdrug Program and proceeding programs have 
supported the States' and territories' counterdrug law enforcement 
efforts for over 30 years. The program includes State Plans efforts 
under the authority of the 54 State and territorial governors, as well 
as training centers, Federal operations, counter-threat finance and 
analytical support programs managed by the National Guard Bureau. 
Mission categories include: Program management, linguist/translator 
support, criminal analysts case support, illicit narcotics detection, 
communications, engineering, diver support, cannabis suppression, 
transportation, training, ground reconnaissance, aerial reconnaissance, 
and civil operations. Soldiers and airmen drawn from the National Guard 
also deploy world-wide under Active-Duty status to support DoD 
counterdrug training, analytical, command and control, aerial patrol, 
international cooperation and related missions.
    Separately from the long-standing National Guard Counterdrug 
Program, the Department of Defense significantly increased National 
Guard support to Southwest Border region security efforts on May 25, 
2010, when President Obama authorized the temporary deployment of up to 
1,200 National Guard personnel to the Southwest Border. These soldiers 
and airmen contribute additional capabilities and capacity to assist 
law enforcement agencies as a bridge to longer-term enhancements in the 
efforts to target illicit networks' trafficking in people, drugs, 
illegal weapons, money, and the violence associated with these illegal 
activities.
    This National Guard deployment began with a steep ramp-up in early 
July 2010, peaking at 1,200 personnel by October 2010, and was 
originally planned to be sustained for approximately 120 days through 
January 2011, followed by a gradual ramp-down to mission completion on 
June 30, 2011.
    These additional National Guard personnel provided criminal 
investigative analysts to Immigration and Customs Enforcement (ICE); 
ground surveillance (EITs) to support Border Patrol; and command and 
control of National Guard personnel. National Guard personnel assigned 
to support DHS did not--and do not--conduct direct law enforcement 
activities.
    DHS and DoD agreed to fund the National Guard support equally--
$67.5 million each--for a total of $135.0 million; however, Congress 
did not approve DHS's reprogramming requests. Consequently, DoD has 
assumed the burden for funding the full cost of this National Guard 
support.
    In June 2011, at the President's direction, Secretary Gates 
extended the National Guard for an additional 3 months through the end 
of fiscal year 2011, again at DoD's full cost. In August 2011, again at 
the President's direction, Secretary Panetta extended the mission 
through the end of calendar year 2011, also at DoD's full cost. The 
total cost to DoD for this National Guard support from July 1, 2010, 
through December 31, 2011, was approximately $158.1 million.
    On October 21, 2011, Secretary Napolitano submitted a new request 
for National Guard support for calendar year 2012 that changed the 
nature of the support from static observation sites to mobile, 
flexible, and adaptive aerial surveillance. On November 22, 2011, 
Secretary Panetta approved the continued use of the National Guard to 
support DHS' efforts to secure the Southwest Border. In accordance with 
this guidance, DoD reduced the number of National Guard personnel from 
1,200 to approximately 300, who would conduct aerial surveillance 
support missions (i.e., 15-20 specially configured OH-58M Kiowa and UH-
72M/S Lakota helicopters supported by a fixed-wing RC-26 platform) in 
the Tucson, Laredo, and Rio Grande Valley CBP sectors and would provide 
intelligence analysis in support of law enforcement (i.e., 
approximately 35 analysts). As also requested by Secretary Napolitano, 
Secretary Panetta waived reimbursement for the full cost of this 
support, which is currently projected to cost DoD approximately $55.6 
million in calendar year 2012.
    There is a frequent tendency to focus on the number of personnel 
(i.e., ``boots on the ground'') to gauge the quantity and, thereby, the 
quality of DoD support. However, using the number of personnel as a 
metric does not get to the actual capability that is needed. Moreover, 
static observation posts do not provide a capability sufficiently 
flexible to anticipate or react to transnational organized crime, which 
has demonstrated itself to be an adaptive threat. This transition from 
1,200 National Guard personnel providing support from fixed positions 
with limited surveillance capabilities is more effective and less 
costly.
    This support has allowed DHS to bridge an operational gap as it 
hired additional agents, including 1,000 new Border Patrol Agents by 
the end of fiscal year 2011, as well as fielded additional technology 
and communications capabilities that Congress authorized. The new 
approach in 2012 for DoD support accounts for this significant growth 
in CBP capabilities. DHS is now employing 1,000 new agents on the 
Southwest Border, along with supporting technology, to help those 
agents interdict illegal crossings. The new DoD support approach is 
tailored to support those expanded CBP forces more effectively by 
providing specialized surveillance capabilities to support law 
enforcement.
                               conclusion
    In conclusion, every day since my confirmation as Assistant 
Secretary of Defense for Homeland Defense and Americas' Security 
Affairs I grow more impressed at the professionalism and dedication of 
the wonderful men and women, military personnel--Active, Reserve, and 
National Guard--and civilians, at DoD, DHS, and other departments and 
agencies who serve in the cause of security for the United States with 
passion, professionalism, and a resolute sense of purpose.
    Chairman Miller, Representative Cuellar, distinguished Members of 
the subcommittee: I commend you for your leadership, continued 
interest, efforts, and support of DoD's defense of the United States 
and support to civil authorities here at home. I look forward to 
working with you in the future.

    Mrs. Miller. Thank you very much. At this time the Chairman 
recognizes Chief Vitiello.

STATEMENT OF RONALD D. VITIELLO, DEPUTY CHIEF OF BORDER PATROL, 
 U.S. CUSTOMS & BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Chief Vitiello. Chairwoman Miller, Ranking Member Cuellar, 
distinguished Members of the subcommittee, it is a privilege 
and honor to appear before you today to discuss the work of 
U.S. Customs and Border Protection as it secures America's 
borders. I am Ronald Vitiello, deputy chief of the U.S. Border 
Patrol. With me, from CBP, is Mr. Martin Vaughn, executive 
director, Office of Air and Marine, Southwest Region.
    I began my career in law enforcement in 1985 as a border 
patrol agent in Laredo, Texas. Director Vaughan started his 
career as a pilot in the Miami Air and Marine branch in 1987. 
Throughout our careers, we have held numerous positions within 
the organization and worked in multiple locations across the 
country.
    The border is a very different environment today than when 
I began my career. I personally witnessed the evolution of the 
border over the past 27 years, both in terms of additional 
resources applied against the threat as well as the change in 
the adversary's threat.
    With the assistance of Congress, we have unprecedented 
influx of resources in support of our border security efforts, 
to include over $1 billion between fiscal year 2006 and 2012 to 
replace, upgrade and modernize CBP's aging aircrafts and 
vessels with advanced technology, expanded mission 
functionality, and improved detection capability.
    CBP's Office of Air and Marine continues to identify 
improved aircraft and central technologies to more effectively 
detect and respond to emerging threats. For example, through 
the acquisition of the unmanned aircraft system, OAM is able to 
provide critical area surveillance and transmit detailed 
information to border patrol agents on the ground, who are able 
to intercept these illicit flows.
    Furthermore, CBP is working to migrate DOD technology from 
a wartime mission to a homeland security application, including 
the current evaluation of radar systems used for tracking 
multiple persons on foot, which provides CBP with a detection 
capability never before seen in our arsenal and will drive 
changes in the strategy of tactics employed in the border 
security mission.
    In addition to the enhanced capabilities provided by OAM, 
our continued partnership with the Department of Defense and 
the National Guard has been one of our greatest assets. 
Building upon years of cooperation and support, DOD and DHS are 
continuing their partnership to further strengthen the already 
unprecedented levels of personnel, technology, and 
infrastructure along the Southwest Border.
    Since June 2010, the National Guard has provided critical 
support to CBP in the form of detection and monitoring to law 
enforcement on the ground. Through a continued continuation of 
Operation Phalanx, the National Guard and the CBP have started 
a transition from ground support to air support. This 
partnership adds increased mobility, detection, and monitoring 
capabilities to CBP's border security operations.
    The National Guard's aerial assets support CBP by shifting 
from fixed to mobile sites that can quickly match the dynamic 
environment of the border. As CBP has sought to gain 
efficiencies on our operations, our border security efforts 
have been supported with our continued partnership with DOD.
    While our work is not done, key indicators showed that 
these collaborative border security efforts are producing 
results. In fact, statistics have shown that some of the safest 
cities and communities in America are along our Southwest 
Border. Nonetheless, we must build on the progress made to 
ensure that those citizens living along the border are secure 
in their community.
    CBP does not hold the corner market on our Nation's 
security efforts. We have learned that it will take a whole-of-
Government approach in law enforcement, each with our own duty 
to responsibilities and authorities, and developed levels of 
Government.
    We have gained a greater appreciation for the 
differentiation between mere coordination and moved toward 
operational integration with Federal, State, local, Tribal, and 
international partners, driving forward in realizing the 
strength of joint planning and implementation in a targeted and 
focused manner with a unity of effort.
    The resource base assembled, and the operations conducted, 
over the past 2 decades have enabled CBP to focus on developing 
and implementing a strategy based on risk, identifying risk 
areas and flows, and targeting our response to meet those 
threats. This risk-based approach is reflected in the core 
pillars of information, integration, and rapid response.
    These pillars are essential to the 21st Century agency that 
we continue to build. Information and intelligence will empower 
us to get ahead of the threat and be predictive and proactive. 
Integration of effort with our partners will ensure we will 
bring all of our available capabilities and tools to bear in 
addressing threats to rapidly respond and to deploy resources 
timely and effectively to meet and mitigate the threats we 
confront.
    Again, thank you for the opportunity to testify today. I 
look forward to your questions.
    [The joint prepared statement of Chief Vitiello and Mr. 
Vaughan follows:]
     Prepared Statement of Ronald D. Vitiello and Martin E. Vaughan
                             April 17, 2012
    Chairman Miller, Ranking Member Cuellar, and distinguished Members 
of the subcommittee, it is an honor to appear before you today to 
discuss the work that U.S. Customs and Border Protection (CBP) does in 
securing America's borders.
    CBP, with more than 60,000 employees, is the largest uniformed, 
Federal law enforcement agency in the country. As America's front-line 
border agency, CBP's priority mission is to protect the American 
public, while facilitating lawful travel and trade. To do this, CBP has 
deployed a multi-layered, risk-based approach to enhance the security 
of our borders while facilitating the flow of lawful people and goods 
entering the United States. This layered approach to security reduces 
our reliance on any single point or program that could be compromised. 
It also extends our zone of security outward, ensuring that our 
physical border is not the first or last line of defense, but one of 
many.
                     commitment to border security
    CBP protects approximately 4,000 miles of border with Canada, 2,000 
miles of border with Mexico, and 2,600 miles of shoreline; processes 
approximately 340 million travelers a year at our ports of entry 
(POEs); and processes more than 29 million trade entries annually. 
CBP's Border Patrol and Air and Marine agents patrol our Nation's land 
and maritime borders, and associated airspace, to prevent illegal entry 
of people and goods into the United States.
    Over the past 3 years, the Department of Homeland Security (DHS) 
has dedicated historic levels of personnel, technology, and resources 
in support of our border security efforts. We have more than doubled 
the size of the Border Patrol since the inception of CBP in March 2003 
to more than 21,000 agents today; tripled deployments of Border Liaison 
Officers working with their Mexican counterparts; and initiated 
screening of southbound rail and vehicle traffic to look for illegal 
weapons and cash that, when smuggled across the border, help to fuel 
the cartel violence in Mexico. Over the last year, we have brought 
greater unity to our enforcement efforts, expanded collaboration with 
other agencies, and improved response times. Last February, we 
announced the Arizona Joint Field Command (JFC)--an organizational 
realignment that brings together Border Patrol, Air and Marine, and 
Field Operations under a unified command structure to integrate CBP's 
border security, commercial enforcement, and trade and travel 
facilitation missions to more effectively meet the unique challenges 
faced in the Arizona area of operations.
    During fiscal years 2009 through 2011, DHS seized 74 percent more 
currency, 41 percent more drugs, and 159 percent more weapons along the 
Southwest Border as compared to fiscal year 2006-2008--these results 
demonstrate the effectiveness of our layered approach to security. CBP 
has also deployed additional technology assets--including mobile 
surveillance units, thermal imaging systems, and large- and small-scale 
non-intrusive inspection equipment--along our Nation's borders, and 
currently has over 270 aircraft and nine Unmanned Aircraft Systems 
(UAS) that provide critical aerial surveillance assistance to personnel 
on the ground. Over the next 2 years, CBP will continue the deployment 
of technology to Arizona to enhance our border security efforts and 
maintain our commitment to ensuring a safe and secure border.
    The National airspace, coastal borders, Southern and Northern 
Border regions are critical to National security and are integral to 
CBP's current goals, successes, and future vision. CBP works closely 
with our Federal, State, local, Tribal, and international partners to 
secure these regions, participating in collaborative efforts such as 
the Joint Interagency Task Force (JIATF) South, which coordinates 
information sharing from U.S. Government agencies and directs law 
enforcement action to intercept potential smuggling attempts in the air 
and maritime approaches to the United States.
    We have also expanded our strong partnerships with Federal, State, 
local, and Tribal agencies, as well as the Canadian government, in 
protecting our communities, borders, and critical infrastructure from 
terrorism and transnational crime. In conjunction with the Royal 
Canadian Mounted Police (RCMP) and the Canada Border Services Agency 
(CBSA), the Department developed a joint border threat assessment, 
which provides U.S. and Canadian policymakers, resource planners, and 
law enforcement officials with a strategic overview of significant 
threats--including drug trafficking (coordinated with the Drug 
Enforcement Agency), illegal immigration, illicit movement of 
prohibited or controlled goods, agricultural hazards, and the spread of 
infectious disease--along our shared border. This assessment has been 
augmented with the priority initiatives of the Beyond the Border 
declaration to enhance cross-border security and increase the 
legitimate flow of people, goods, and services between the United 
States and Canada.
    The President's fiscal year 2013 budget request continues these 
efforts, supporting the largest deployment of law enforcement officers 
to the front line in our agency's history: 21,370 Border Patrol agents 
and 21,186 CBP officers at our ports of entry who work 24/7 with State, 
local, and Federal law enforcement in targeting illicit networks 
trafficking in people, drugs, weapons, and money.
    While there is still work to be done, every key measure shows we 
are making significant progress. Along the Southwest Border, Border 
Patrol apprehensions--a key indicator of illegal immigration--have 
decreased 53 percent since fiscal year 2008, and are less than one-
fifth of what they were at their peak in 2000. We have matched these 
decreases in apprehensions with increases in seizures of cash, drugs, 
and weapons. In fiscal year 2011, CBP seized more than $126 million in 
illegal currency and nearly 5 million pounds of narcotics Nation-wide. 
According to 2010 FBI crime reports, violent crimes in Southwest Border 
States have dropped by an average of 40 percent in the last 2 decades, 
and some of the safest cities in America are border communities.
                     department of defense support
    Since July 2010, the Department of Defense (DOD), primarily through 
the National Guard, has provided support to CBP as part of the 
administration's Southwest Border Initiative. National Guard troops 
have acted as a critical support bridge while the administration 
brought on new assets provided by the fiscal year 2010 supplemental 
appropriation dedicated to effective border management and security. 
The National Guard support mission, known as Operation Phalanx, 
initially included up to 1,200 personnel providing detection, 
monitoring, and criminal analysis support to law enforcement on the 
ground. DOD and DHS are continuing their partnership to further 
strengthen the already unprecedented levels of personnel, technology, 
and infrastructure along the Southwest Border.
    The current DOD mission will continue through the end of calendar 
year 2012. Now that the CBP civilian law enforcement assets and 
operational personnel allocated from the Southwest Border Supplemental 
from August 2010 are in place, including a record number of U.S. Border 
Patrol agents, the National Guard began a transition from ground 
support in static positions to rotary and fixed-wing assets conducting 
aerial detection and monitoring--essentially moving from boots on the 
ground to boots in the air. The strategic transition to aerial support 
adds mobile, advanced detection and monitoring capability to the Border 
Patrol's internal air and ground border security operations, helping to 
mitigate differences in operational landscapes along the border; 
providing an additional deterrence factor; providing a faster response 
time; and providing flexible and adaptive capabilities in lieu of fixed 
sites.
    Operating environments differ from sector to sector and even within 
sectors. An aerial platform provides a much greater field of vision for 
places like south Texas where a winding river and thick brush make it 
difficult to see from a static location on the ground. The additional 
aerial assets provided by DOD coupled with the CBP Office of Air and 
Marine air fleet and Border Patrol agents on the ground provide even 
greater border deterrence capabilities. Further, the air assets reduce 
enforcement response time where CBP aerial assets are unavailable, 
providing Border Patrol agents on the ground with greater visibility.
    The transition to aviation and intelligence analyst support also 
includes approximately 200 National Guard troops providing mobile 
aerial detection and monitoring and analyst support across all four 
Southwest Border States. These individuals are supporting law 
enforcement interdiction operations against illicit trafficking in 
people, drugs, weapons, and money. The addition of National Guard 
aerial assets allows DOD to better support CBP by shifting from fixed 
to mobile sites that can quickly match the dynamic environment of the 
border--an important enhancement to our capability to detect and deter 
illegal activity at the border.
    DoD also supports CBP through a number of counternarcotics missions 
and activities directly related to the threat posed by illicit drug 
trafficking. Support provided by the National Guard Counterdrug Program 
and through Joint Task Force--North contributes unique military skills 
that are an effective force multiplier to CBP operations.
                   cbp office of air and marine (oam)
    OAM is a critical component of CBP's layered approach to border 
security. With more than 1,200 law enforcement personnel operating 
aircraft and marine vessels from numerous locations throughout the 
United States and Puerto Rico, OAM conducts a broad range of operations 
and supports multiple operational objectives. OAM uses its 
sophisticated and integrated air and marine fleets to detect, sort, 
intercept, track, and apprehend criminals in diverse environments at 
and beyond U.S. borders. This specialized law enforcement capability 
allows OAM to make significant contributions to homeland security 
efforts across DHS, including the work of U.S. Coast Guard, FEMA, and 
U.S. Secret Service as well as numerous interagency partners including 
FBI and DEA, as well as other Federal, State, local, and Tribal 
agencies.
    By instituting multiple initiatives to augment CBP's fleet of 
aircraft, OAM has solidified its ability to provide air support to 
front-line personnel. At the same time, OAM is also supported by our 
agency partners, and our continued partnership with DOD has been one of 
our greatest assets. Through Operation Phalanx, CBP continues to 
leverage the National Guard air assets to meet CBP's operational needs.
    A key element of CBP's border security efforts has been OAM's 
aviation recapitalization program, which has increased the flexibility 
and effectiveness of CBP aircraft and air operations in support of 
Department of Homeland Security and its international, Federal, State, 
local, and Tribal partners. From fiscal year 2006 through fiscal year 
2012, Congress provided CBP with over $1 billion to accomplish the 
objectives laid out in our long-range plan to replace/upgrade CBP's 
aging fleet of aircraft and marine vessels. The fiscal year 2013 
President's budget requests an additional $67 million to continue this 
recapitalization effort which has enabled OAM to modernize its fleet of 
aircraft with advanced technology, expanded mission functionality, and 
improved detection capability
    Another major OAM initiative has been the acquisition of the UAS. 
As previously mentioned, the UAS provides critical aerial surveillance 
assistance to personnel on the ground. The unique construction and 
engine efficiency of the UAS enables OAM to effectively operate the UAS 
for long durations, up to 20 hours per sortie, allowing OAM to support 
several geographic areas, customers, and/or mission requirements if 
required before returning to base. UAS operating along the borders can 
cover hundreds of miles in a single sortie and provide detailed 
information on routes transited across the border, allowing the Border 
Patrol to selectively deploy ground agents to efficiently interdict 
illicit operations. By leveraging the unique capabilities of the UAS' 
satellite command-and-control architecture, OAM is able to adjust which 
ground control station and associated UAS aircrew commands the airborne 
UAS, transitioning control of the UAS during a single sortie between 
available ground control stations across the country and allowing quick 
adjustments for unexpected equipment outages. For example, FEMA uses 
the unique UAS capabilities to analyze waterways for weaknesses and 
shifts in support structures. Information both prior to flooding and in 
response is used by decision makers who need to move assets and 
personnel to affected areas in a timely manner.
    OAM makes efficient use of its staffs' extensive aviation 
experience by dual-qualifying existing select aircrew to operate both 
the UAS and other manned aircraft, reducing the amount of aircrew 
required to stand up and operate a UAS site. For example, OAM placed a 
ground control station at Naval Air Station Corpus Christi, Texas, 
where OAM already maintains a squadron of aircrew to operate the CBP 
P-3 aircraft. By training some of the aircrew to also operate the UAS, 
CBP was able to place a Predator B aircraft at Corpus without incurring 
additional manpower requirements to fly the UAS and control its 
sensors.
    Further, in cooperation with the DOD, CBP is working to migrate 
technology from a wartime mission to a homeland security application, 
and is currently operationally evaluating the Vehicle and Dismount 
Exploitation Radar (VaDER) on OAM UAS. Using the latest in radar 
technologies, VaDER has the ability to monitor vehicle and personnel 
movement over large areas independent of atmospheric conditions. 
Airborne testing on the UAS began earlier this year, and we are 
encouraged by the results. The capability the UAS offers will drive 
important changes in the strategies and tactics we use to achieve our 
border mission.
    OAM has additionally partnered with the U.S. Army to acquire new 
UH-60M Black Hawk medium-lift helicopters, and to convert its aging 16 
UH-60A Black Hawks from ``Alpha'' to ``Lima'' models. The ``Alphas'' 
date back to the 1970s, and were becoming difficult to support, with 
phased maintenance costs increasing and safety-related structural 
issues becoming more prevalent. The new and converted Black Hawks offer 
greater speed and endurance, greater lift capacity, more sophisticated 
on-board data processing, a four-axis autopilot, altitude hold and an 
audible altitude alert. These advanced features increase safety for 
nighttime over-water operations, and make them the ideal platform for 
confronting border violence and supporting operations in hostile 
environments. In addition, the Army projects that the converted Black 
Hawks will cost significantly less to maintain and support over the 
lifetime of the fleet.
    CBP is further maximizing operational effectiveness by replacing 
multiple aircraft types with a single, newer, more technologically 
advanced, and versatile airframe. CBP's aging PA-42 Customs High 
Endurance Tracker (CHET) Air-to-Air Interceptor and the C-12M Maritime 
Search Aircraft will soon be replaced with a new Multi-role Enforcement 
Aircraft (MEA). The MEA, equipped with state-of-the-art sensor 
equipment and satellite communications capabilities, will perform 
detection, tracking, and surveillance functions during marine, air-to-
air, and over-land interdiction missions. The MEA will also be 
configured with Law Enforcement Technical Collection (LETC) equipment 
capable of identifying electronic emanations and cueing other air and 
ground assets towards suspected targets. In its multi-role 
configuration, the MEA will provide border protection, law enforcement, 
and rapid response contingency deployment capabilities.
                               conclusion
    Chairwoman Miller, Ranking Member Cuellar, and distinguished 
Members of the committee, thank you for this opportunity to testify 
about the work of U.S. Customs and Border Protection, and our efforts 
in securing our borders. CBP is committed to providing our front-line 
agents and officers with the tools they need to effectively achieve 
their primary mission of securing America's borders, and we look 
forward to continuing to work closely with our Federal, State, local, 
Tribal, and international partners in these efforts.
    We look forward to answering your questions at this time.

    Mrs. Miller. The Chairwoman now recognizes Mr. Vaughan for 
his testimony.

 STATEMENT OF MARTIN E. VAUGHAN, EXECUTIVE DIRECTOR, SOUTHWEST 
    REGION, OFFICE OF AIR AND MARINE, U.S. CUSTOMS & BORDER 
        PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Vaughan. We submitted a joint statement--I agree with 
his oral testimony.
    Mrs. Miller. Very well. The Chairwoman now recognizes 
General Nichols for his testimony.

  STATEMENT OF JOHN NICHOLS, ADJUTANT GENERAL, TEXAS NATIONAL 
                             GUARD

    General Nichols. Madame Chairwoman and Ranking Member 
Cuellar, other distinguished Members, I am here representing 
the Texas National Guard. I want to begin first by thanking the 
Congresswoman, Congressman Cuellar, and Congressman McCaul for 
helping us to attempt to secure the C-130s at the 136th Airlift 
Wing in Fort Worth.
    I want to put a little bit of historical perspective into 
the border issue. Since 1960, the National Guard has mobilized 
to help secure the border with Mexico. We have, time and time 
again, answered your call for ready and trained combat forces 
in support of the defense of the Nation. As you know, in 1989 
the National Defense Authorization Act created a National 
Counterdrug Program, which I think gets overlooked when we talk 
about National defense.
    Title 32 section 112 of the U.S. Code of the National 
Defense Authorization Act authorized up to 4,000 National Guard 
members back in 1989 to be part of the National Guard 
Counterdrug Program. But we are in all 54 States and 
territories. So there are soldiers and airmen in the Joint 
Counterdrug Task Force with over 200 law enforcement agencies 
just in Texas alone.
    This results in providing a significant contribution to 
counternarcotic operations along the Texas-Mexico border. Texas 
doesn't just rely on antidrug programs alone. But we also run 
operations through the Department of Public Safety, in concert 
with our Federal, State, and local law enforcement agencies.
    Operation Rio Grande, which started back in early 2000, was 
primarily a law enforcement operation, surging Federal, State, 
and local law enforcement assets at intelligence-based times 
and locations. In Operation Border Star, we utilize members of 
the counterdrug task force with our DPS, work in concert with 
our friends and neighbors of the Customs and Border Patrol, 
where we go look forward with the Texas Rangers and conduct 
missions.
    So, it is a team effort. We also bring counterdrug aviation 
into the fray. One of the very good developments with the new 
operation, with the helicopters coming to the border, is that 
we are allowed to continue to use our counterdrug aircraft in a 
counterdrug role along the borders. So it brings more assets.
    Now, there are 12 helicopters on the border, plus two more 
from the counterdrug program. The counterdrug program is also 
the folks that help train the forces that came into Texas and 
showed them the tactics, techniques, and procedures while they 
are in Texas. Also, we make sure they are good neighbors to our 
neighbors, to our borders.
    Also in June 2006, Operation Jump Start mobilized 6,000 
Guardsmen, as you are well aware. Sixteen hundred of those 
folks were Texas Guardsmen. In 2010, we had asked to provide 
1,200 soldiers and airmen. Of that, we got about 289 folks in 
Texas. We have got over 1,200 miles of border and received less 
than a quarter of the forces that were requested.
    This mission did end, and now we are in the River Watch 2. 
It has been going on for about a month and, as Secretary 
Stockton said, I think we still have to analyze this. We are 
going to develop as we go. We are going to look at our tactics, 
techniques, and procedures to see how we can refine that. Then 
we will continue to adapt, both on the air and with our 
Counterdrug Task Force and with the Customs and Border Patrol.
    My concern with the Counterdrug Task Force is, it has been 
a constant program since 1989 and it has proven results since 
then. Just in Texas alone, we have been responsible, with only 
200 soldiers and airmen responsible and part and parcel 
interdicting $54 billion worth of narcotics, drugs, and 
paraphernalia.
    I don't have the National Guard number. We can certainly 
get that for you, since 1989 has been phenomenal. Last year 
alone, the whole Nation's counterdrug program interdicted $18.5 
billion, and the year before $45.5 billion. Our counterdrug 
programs getting cut 50 percent this year. There is a $100 
million worth of reduction in the DOD counternarcotics program; 
$75 million of it is taken out of the counterdrug program.
    That is a reduction of about 1,100 soldiers and airmen. But 
if you think about the price, for $75 million is that a cost-
effective program that interdicts $18 billion or $45 billion? 
So, if we look at the metrics, I think we could see a direct 
correlation between those folks working day in and day out in 
counternarcotics. Then the nexus between narco-terrorism, human 
trafficking, that these folks work directly with Customs Air 
and Border Patrol to help interdict.
    The National Guard budget went from $179 million to $105 
million. So, it is about $74 million less. These operations in 
counterdrug also support our joint operations information 
centers throughout Texas. We have 38 analysts in there, with 
also a group called our Texas State Guard that helps the 
Customs and Border Patrol folks in our border security 
operation centers.
    So we have a good team going, but I do fear if we lose the 
counterdrug opportunity, or force, we are going to lose a great 
opportunity to stop not only drugs coming to America, but those 
folks who carry the drugs and those coyotes that help them do 
that.
    I thank you again for this opportunity and welcome any 
questions you may have at this time.
    [The statement of General Nichols follows:]
            Prepared Statement of Major General John Nichols
                             April 17, 2012
                                overview
    Madame Chairwoman, Members of the committee, thank you for inviting 
me here today. My name is Major General John Nichols, and I am the 
Adjutant General from the great State of Texas. It is a pleasure to be 
here providing you information on the Texas National Guard so you can 
make informed decisions that will strengthen our Nation's military 
forces and protect our borders and communities.
    I want to begin by thanking Congresswoman Jackson Lee and 
Congressmen McCaul and Cuellar for their support in our fight to keep 
the C-130s at the 136th Airlift Wing in Ft. Worth. The battle is 
continuing, but thanks in part to your support, we are making headway.
    In times of emergency, the Governor of Texas relies on the 136th 
Airlift Wing's eight C-130s to protect not only Texans, but all Gulf 
State citizens. Since 2005, the Texas Air Guard's C-130s have flown 423 
storm sorties, delivering 939 tons of needed supplies along the entire 
Gulf Coast. In addition, the C-130s are the only aircraft that can be 
called into action by the Governor in a state of emergency, far faster 
than Federal forces can respond. As a result, Texas was the first to 
respond and successfully evacuate 800 hospital and nursing home 
patients during Hurricanes Ike and Gustav.
    So again, thank you for helping us keep this issue alive in 
Washington, DC.
                                 ______
                                 
    The National Guard is unique in that we are dual-missioned. First, 
we provide the President and the country with ready and trained combat 
forces in support of the defense of the Nation. Secondly, we provide 
the Governor and the citizens of Texas with mission-ready support to 
civil authorities.
    The Texas National Guard has the largest Air and Army Guard force 
in the country and leads all other States in combat deployments. Since 
9/11, we have deployed more than 31,000 soldiers and airmen in support 
of the Global War on Terror and overseas Contingency Operations. Our 
National Guard Soldiers and Airmen are on the front lines--at home and 
abroad--doing everything necessary to defend America and our way of 
life.
    Today, I want to share with you the Texas National Guard's long 
history fighting the war on drugs. We support the National counter-
narcotics fight in Texas with our:
  <bullet> Texas National Guard Joint Counterdrug Task Force.--
        Authorized by the National Defense Authorization Act in 1989 
        under Title 32 Section 112 of the U.S. Code, the National Guard 
        Counterdrug Program authorizes up to 4,000 National Guard 
        members to perform drug interdiction and counterdrug activities 
        in all 54 States and territories. The Texas National Guard's 
        Joint Counterdrug Task Force (JCDTF) has provided unsurpassed, 
        enduring, operational, counterdrug support to the combatant 
        commander and the inter-agency enterprise for the past 22 
        years. The Task Force's highly-skilled soldiers and airmen 
        offer the continuity necessary to foster and maintain positive 
        relationships with over 200 Federal, State, and local drug law 
        enforcement agencies and community-based organizations across 
        the State of Texas, resulting in significant contributions to 
        counter-narcotic operations along the Texas-Mexico border.
    The Texas program is currently manned with 145 Army National Guard 
Soldiers and 70 Air National Guard Airmen, totaling 215 personnel 
serving on full-time National Guard Duty. These soldiers and airmen are 
currently assigned to over 70 Federal, State, and local law enforcement 
agencies and community-based organizations. Sixty-eight percent of the 
program's strength serves in direct support of Texas-Mexico border law 
enforcement support operations.
    The Texas National Guard Joint Counterdrug Task Force uses a 
combination of investigative case analytical support and ground and 
aerial reconnaissance to assist law enforcement agencies in combating 
transnational threats, narco-terrorism and the direct nexus between 
drug trafficking, terrorism, and related border violence.
  <bullet> The program's investigative case analytical support mission 
        provides trained personnel to assist assigned law enforcement 
        agencies in researching and analyzing case information and 
        producing law enforcement intelligence products.
  <bullet> Ground reconnaissance missions provide area observation of 
        suspected drug activity through both unattended camera support 
        and visual observation posts using night vision and infrared/
        thermal imagery equipment.
  <bullet> Aerial reconnaissance missions are supported by both rotary 
        wing and fixed-wing platforms. The Counterdrug Aviation Element 
        accesses six LUH-72's (Lakota) to conduct law enforcement-
        requested reconnaissance missions.
  <bullet> Finally, Texas is one of 11 States that share the remaining 
        five RC26, fixed-wing reconnaissance aircraft on a rotational 
        basis.
    These combined capabilities have allowed the Texas Joint 
Counterdrug Task Force to contribute over 2.4 million work days to law 
enforcement agencies, resulting in drug seizure assists totaling over 
$54 billion dollars and the successful interdiction of $387 million 
dollars in drug trafficker's cash since the Task Force's inception in 
1989.
    In addition to the supply reduction and interdiction components of 
the program, the Joint Counterdrug Task Force has oversight of Texas 
National Guard Youth Programs in the State and provides critical drug 
demand reduction, civil operation support, and coalition-building 
services to schools and community-based organizations throughout Texas. 
In fiscal year 2011, the program's drug demand reduction team conducted 
educational presentations that reached more than 110,000 Texas middle 
school students and supported the State's ``Red Ribbon Campaign,'' 
encouraging drug-free lifestyles.
    The Texas Counterdrug Program also facilitates an extremely 
successful at-risk drug prevention youth program. Our Texas ChalleNGe 
Academy, located in Sheffield, Texas, operates a dynamic in-residence 
academy aimed at intervening in and reclaiming the lives of high school 
dropouts between the ages of 16 and 18. The academy produces graduates 
with the values, life skills, education, and self-discipline necessary 
to succeed as productive citizens. To date, more than 2,000 at-risk 
Texas youth have completed the ChalleNGe Academy.
    Our second Counter Drug youth program, called STARBASE, short for 
Science and Technology Academies Reinforcing Basic Aviation and Space 
Exploration, is a National Guard program designed to expose 5th graders 
to math applications through projects, simulations, and experiments in 
aviation and space-related fields. STARBASE, a Science, Technology, 
Engineering, and Math program, commonly called STEM, and has conducted 
more than 450 classes and graduated nearly 15,000 students in the past 
15 years. The program currently serves more than 30 schools and is 100% 
Federally-funded.
    These are just a few examples of National Guard programs that have 
a positive impact on our communities. I'd like to transition now to 
discussing the fiscal year 2013 budget.
    According to the President's fiscal year 2013 budget request, the 
Department of Defense Counter Narcotics budget of $1.1 billion 
represents a loss of $100 million in OCONUS and CONUS drug interdiction 
activities. Seventy-five million dollars of the $100 million reduction 
is projected to come out of the National Guard Counterdrug State Plans 
budget. This $75 million reduction represents a 42% loss of the 
National Guard's fiscal year 2012 President's budget of $179 million. 
The Department of Defense's support to the National Guard Counterdrug 
program has decreased from 27% of the Department's counter-narcotic 
budget in 2003, to 24% in 2012, to a dramatic drop to 9% projected for 
2013. This reduction will essentially cripple the Guard's ability to 
support its Congressionally-mandated mission in support of the National 
Drug Control Strategy. Projected reduction in funding will result in 
over 1,100 fewer Guardsmen across all 54 States and territories. This 
reduction translates to approximately 4,100 fewer missions and 4,000 
fewer flying hours supporting counternarcotic operations against the 
robust, continuously adapting, organized drug cartels and transnational 
criminal organizations aiming to exploit American borders and 
communities.
    The impact to the Texas Joint Counterdrug Task Force and its 1,265 
miles of Texas-Mexico border is devastating and will result in a 
reduction in force from 215 to 115 personnel on orders. Approximately 
10% of the program's soldiers and airmen are currently deployed OCONUS 
in support of OEF and other overseas contingency operations, and 
because of their junior status with the Texas Joint Counterdrug Task 
Force, these members will not have a full-time job to return to upon 
demobilization.
    The impact to Texas law enforcement agencies is profound:
  <bullet> Reduction from 215 to 115 soldiers and/or airmen on orders;
  <bullet> 100 soldiers/airmen lost = 42% reduction in strength;
    <bullet> 50 Investigative Analysts Lost = reduction from 38,687 
            man-days provided to LEAs in to 21,664 man-days provided;
    <bullet> 18 Special Operations Personnel Lost = reduction from 
            78,640 hours of ground surveillance conducted to 44,038 hrs 
            of ground surveillance conducted;
    <bullet> Six Counterdrug Aviation Element Aviators Lost = reduction 
            from 1,273 aerial surveillance hours flown to 712 aerial 
            surveillance hours flown;
  <bullet> 19 HQ Staff Lost;
    <bullet> Seven Drug Demand Reduction/Civil Ops Lost = reduction 
            from 107,000 youth reached to 59,920 youth reached; and
  <bullet> Reduction from $981 million in seizure assists to $549 
        million total seizure assists.
    At this time, I would like to give you some specific background on 
the Texas National Guard's operations along the Texas-Mexico border not 
involving the Texas Joint Counterdrug Task Force.
            texas border operations--historical perspective
    Texas has a total area of over 266,000 square miles and is the 
second-largest State in the union and the second-largest in population 
with a total population of over 25 million (25,145,561). Texas shares a 
1,241-mile international border with Mexico, with 26 border crossings 
and 26 official land, sea, and air ports of entry within the State, all 
of which have the potential to contribute to threats to United States 
security.
                        texas border operations
    Most recently, the Texas National Guard has assisted in border 
security since 2006. In March of that year, the State of Texas 
established the Border Security Operation Center and initiated 
Operation Rio Grande in response to border-related crime, including 
narcotics and human trafficking, as well as crime committed by 
undocumented aliens and smugglers. Operation Rio Grande was primarily a 
law enforcement operation, surging Federal, State, and local law 
enforcement assets at intelligence-based times and locations. This 
multi-agency effort included U.S. Border Patrol, the Texas Department 
of Public Safety, the Texas Parks and Wildlife Game Wardens, and local 
police departments and sheriff's offices, with the goals of deterring, 
disrupting, and disorganizing illegal activity. The Texas National 
Guard provided planning support during the initial five operations, one 
in each Customs and Border Protection sector in Texas. These operations 
lasted approximately 2 weeks each, from June-September in 2006.
    In January 2007, Operation Rio Grande transitioned to Operation 
Wrangler. The State of Texas opened eleven Joint Operations and 
Intelligence Centers, one in each of the five CBP sectors, one covering 
the south Texas coast, and five covering major movement corridors. 
These JOICs serve as regional multi-agency planning, synchronization, 
and criminal information centers. The Texas National Guard provides 
personnel, in a State Active Duty status, to these JOICs, providing 
administrative and analytical support. During Operation Wrangler I, 
from January 22-29, 2007, Federal, State, and local law enforcement 
conducted surge operations along the entire Texas-Mexico border. The 
Texas National Guard provided an additional 350 personnel, in State 
Active Duty status, to augment law enforcement efforts. This mission 
now has transitioned into Operation Border Star. The Texas National 
Guard currently has 38 personnel supporting six JOICs on this mission, 
as well as the Joint Counterdrug Task Force.
                          operation jump start
    In May 2006, President Bush announced the deployment of 6,000 
National Guard personnel to provide support to U.S. Customs and Border 
Protection. Operation Jump Start was a 2-year, $1.2 billion mission 
that ran from June 2006 through July 2008. Operation Jump Start 
augmented the U.S. Border Patrol with additional manpower for 
administrative and operational assistance missions, alleviating Border 
Patrol agents of these responsibilities and allowing those agents to be 
sent back out to the field where they were needed most. At its peak, 
the Texas National Guard deployed 1,900 personnel for Operation Jump 
Start.
                         dhs operation phalanx
    On May 25, 2010, the President directed the temporary use of up to 
1,200 National Guard personnel on the Southwest Border to support the 
Department of Homeland Security (DHS) activities. From October 1, 2010, 
through February 29, 2012, the Texas National Guard provided 286 
personnel. In Texas, we called this mission Operation River Watch. 
Operation River Watch supported both Customs and Border Protection and 
Immigration and Customs Enforcement by supporting two key mission sets, 
Entry Identification, and Criminal Analysis. Additionally, the Texas 
National Guard provided a joint, 13 personnel Command and Control Cell.
    Funding for the first year of support to Operation Phalanx was 
initially programmed for $135 million. With careful execution of this 
funding, it was reduced to $110 million. On December 15, 2011, the 
Secretary of Defense extended the EIT mission through the end of 
February and established the requirement for the Aerial Detection and 
Monitoring mission beginning not later than March 1, 2012. The budget 
for calendar year 2012, covering the last 2 months of Operation River 
Watch I and 10 months of Operation River Watch II, is $60 million, a 
significant cost saving to the U.S. taxpayer.
    In Texas, the Texas National Guard provided 246 personnel for Entry 
Identification Teams, or EITs, supporting Customs and Border 
Protection. At the request of CBP, this support was focused on three 
U.S. Border Patrol stations in the Rio Grande Valley sector: Rio Grande 
City, McAllen, and Weslaco. We provided one Texas Army National Guard 
company, each with 82 personnel, to each station. These personnel were 
fully integrated with U.S. Border Patrol and attended USBP Roll Call 
and shift briefings. The personnel and positioning was scheduled with 
their USBP counterparts. Our guardsmen were armed, but only for self-
defense. They were trained extensively on the Rules for the Use of 
Force. These forces occupied highly overt positions, 24 hours a day, 7 
days a week. The majority of these positions employed a Mobile 
Surveillance System, either a Scope Truck with an elevated camera, or a 
Sky Box, an elevated observation platform. Over the 17 months of 
Operation River Watch, these three companies were credited with 
assisting U.S. Border Patrol by observing 8,112 undocumented aliens, 
which led to 4,030 apprehensions and 3,417 aliens who turned back to 
Mexico prior to apprehension. The companies were also credited with the 
seizure of 17,665 lbs. of marijuana.
    In the other key mission set, supporting Immigration and Customs 
Enforcement, the Texas National Guard provided 27 Criminal Analysts 
from both the Texas Army and Air National Guard in ten different 
locations throughout Texas, including the border area. All of these 
personnel maintained a Secret security clearance and assisted ICE in 
over 350 different Homeland Security Investigations, including: 
Immigration crime; human rights violations; human smuggling; smuggling 
of narcotics, weapons and other types of contraband; financial crimes; 
cybercrime; and export enforcement issues.
    Operation River Watch was originally scheduled to end on June 30, 
2011, but was extended three times. The first extension included the 
last quarter of fiscal year 2011 and the second extension included the 
first quarter of fiscal year 2012. The third extension completed the 
mission, and included January and February 2012.
    In December 2011, the Department of Defense announced that not 
later than March 1, 2012, the National Guard personnel supporting DHS 
would be reduced from 1,200 to no more than 300 personnel. The mission 
sets changed as well. In addition to continuing the Criminal Analysis 
mission, the National Guard would transition from a ground-observation 
mission to an aerial detection and monitoring mission. Currently, the 
Texas National Guard Commander of Domestic Operations is in overall 
command of 101 personnel conducting both rotary wing and fixed-wing 
aerial detection and monitoring to Customs and Border Protection, 15 
personnel providing Criminal Analysis to Immigration and Customs 
Enforcement, and 11 personnel providing liaison and life support.
    The Texas portion of this mission is known as Operation River Watch 
II. Texas has received a great deal of support with this mission. One 
of the planning factors was to sustain Texas' National Guard Joint 
Counterdrug Task Force capability by not using the task force as a 
force provider for Operation River Watch II. With the pending OCONUS 
deployment of a significant portion of the 36th Combat Aviation Brigade 
from the Texas Army National Guard, Texas has required support from 
over 10 States and territories to fill the aerial requirements. This 
effort is lead by the 2-151 Security and Support Aviation Battalion 
from the South Carolina Army National Guard, as the command element of 
Joint Task Force Liberty.
    On March 1, 2012, Joint Task Force Liberty commenced operations 
supporting the U.S. Department of Homeland Security. The mission is to 
conduct aerial detection and monitoring in order to detect, interdict, 
and disrupt Terrorist Criminal Organizations/Drug Trafficking 
Organizations along the Texas-Mexico border through December 31, 2012. 
The intent of JTF Liberty is to augment Customs Border Protection 
operations. The presence of JTF Liberty allows the National Guard to 
support DHS with air mobile assets that can quickly match the dynamic 
environment of the border. This provides a significant enhancement in 
the ability to detect and deter illegal activity at the border and 
offers greater support to the thousands of men and women involved in 
border security.
    JTF Liberty's area of responsibility spans over 200 miles of 
border, from the Gulf Coast to an area northwest of Laredo, 
incorporating both the Rio Grande Valley and Laredo sectors. The unit 
employs both Army and Air Guardsmen in Title 32 status in the command 
and control, operation, and maintenance of twelve UH-72A Lakota and one 
RC-26B aircraft. The JTF is committed to providing CBP with 640 rotary 
wing and 200 fixed-wing flight hours per month.
    The Task Force is working closely with all stakeholders to better 
integrate efforts and resources. Through interagency collaboration, 
greater information sharing is emerging, enabling the employment of 
assets in a more deliberate manner with increased effectiveness. 
Development of techniques, tactics, and procedures, especially 
utilizing the UH-72A Mission Equipment Package, is on-going with 
demonstrated efficiency.
    Since commencement of operations, Joint Task Force Liberty has 
executed a total of 1,073 flight hours, including 947 UH-72A hours and 
126 RC-26B hours as of April 6, 2012. Additionally, in just over 1 
month of operations, the Task Force was credited by CBP in assisting 
with 1,980 undocumented alien observations, 1,144 apprehensions, 689 
turn-backs, 25 alien smuggling cases, and the seizure of 4,508 lbs. of 
marijuana.
                                 ______
                                 
    Because of our long-standing successful partnerships and 
interaction with the Texas Department of Public Safety and the local 
and Federal law enforcement agencies along the border over the past 22 
years, we want to further that success and increase our capabilities by 
establishing a Joint Interagency Training Center in South Texas. We are 
exploring the options with assistance from Congressman Cuellar to help 
us find suitable land. If the State can acquire the available land, 
then the Texas National Guard can work with Federally-funded agencies, 
such as the Department of Homeland Security, Customs and Border Patrol 
and DOD, to build facilities that all agencies can utilize for 
training. Our collaboration will ensure greater capabilities for all of 
our border operations. A facility like this does not exist anywhere 
along the Texas-Mexico border. We feel this is the essential next step 
in training and operations in such a vital area for the safety and 
security of America.
    The National Guard in a Title 32 status is the only DoD provider 
capable of supporting domestic law enforcement agencies in the fight 
against illicit drugs and transnational threats to the homeland due to 
its exemption from the Posse Comitatus Act (18 USC Sec 1385). Congress 
has repeatedly demonstrated its recognition of both the capabilities 
and efficiencies that the National Guard brings to the counterdrug 
fight while simultaneously providing training and operational 
experience for Guard personnel. A key consequence of having these 
soldiers and airmen working with and standing by law enforcement is 
that they not only use and hone their military specialized skills, but 
they also gain additional skills by working with Federal, State, and 
local law enforcement and other community organizations. This makes 
them better soldiers and airmen and improves their units when they are 
mobilized for overseas deployments to fight wars in Iraq, Afghanistan, 
and areas such as the Horn of Africa.
    I hope I have done an adequate job of briefing you on a general 
overview of what the Texas National Guard does for our State and our 
country. The Texas National Guard is battle-ready, accessible, 
flexible, affordable, and a sustainable military force. Unlike our 
active-duty counterparts, Texas Guard members live and serve in each of 
Texas' 254 counties. We have over 100 facilities in 65 counties. This 
connection with every community is an incalculable advantage to State 
and National security. With Air and Army National Guard units in every 
corner of our State, our Governor has the capacity to quickly tailor 
and employ multi-service solutions to the full spectrum of domestic 
operations including to State emergencies, a need that is imperative in 
a State of our size.
    Thank you all for the opportunity to appear before you today. The 
Texas National Guard will continue to support the President of the 
United States and the Governor of Texas and work to keep Texans safe by 
ensuring our readiness at the time of need.

    Mrs. Miller. Thank you very much, General.
    The Chairwoman now recognizes Mr. Lepore for his testimony.

 STATEMENT OF BRIAN J. LEPORE, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lepore. Thank you, Madam Chairwoman. Chairman Miller, 
Ranking Member Cuellar, and Members of the subcommittee, thank 
you for the opportunity to be here today to present our 
observations on the costs and benefits of an increased role of 
the DOD in helping to secure the Southwest Border.
    We reported our observations this past September. My 
testimony is based on our report, and I will make three points 
today. First, I will discuss some of the costs, benefits, and 
challenges of a DOD role in helping to secure the Southwest 
Border. Second, I will identify challenges associated from 
increased use of unmanned aerial systems and manned aircrafts 
along the border for this purpose. Finally, some considerations 
from assigning an increase in border security responsibilities 
to DOD.
    Now my first point. The cost and benefits of an increased 
role for DOD. The DOD reported that it spent about $1.35 
billion for two separate border operations--Operation Jump 
Start and Operation Phalanx--conducted by National Guard forces 
in Title 32 status from June 2006 to July 2008, and again from 
June 2010 through September 30, 2011, respectively.
    Here are some of the factors that help explain those costs. 
In Title 32 status, the key factor is whether in-State or out-
of-State Guard forces are used, since out-of-State Guard forces 
can cost more due to the need for transportation. The ratio of 
officers to enlisted personnel, the nature and duration of the 
mission, and the types of equipment used can all affect the 
cost. If the Guard is prohibited from conducting law 
enforcement activities and does mobile patrols, the cost can be 
higher.
    Here is why. DOD forces generally do patrols in pairs, but 
the Border Patrol often doesn't. Also, since the guards could 
not make arrests when engaging in support to law enforcement, 
they still need to call in the Border Patrol if the guard 
observed a person of interest.
    Now, some of the benefits. They can be thought of in two 
ways. First, it benefits the border security from the Guard's 
patrols. Second, it benefits the members of the Guard itself or 
the Border Patrol from the mission. Here are some of the border 
security benefits from Operations Jump Start and Phalanx.
    The Border Patrol reported the National Guard helped to 
apprehend over 200,000 undocumented aliens under two 
operations. The Guard helped to seize almost 373,000 pounds of 
marijuana and the Guard helped to deter illegal activity at the 
border.
    Here are some of the benefits to the Guard for the Border 
Patrol. DOD assistance provided a bridge or augmentation until 
newly-hired Border Patrol agents were trained and deployed. The 
Guard realized the training benefit from operating in 
environments similar to that experienced in overseas theaters 
of operations. It enhanced relationships with law enforcement 
agencies, and strengthened military-to-military relationships 
with Mexico's forces.
    Now some of the challenges for using DOD forces in 
Southwest Border security. The Secretary of Defense did not 
want Title 32 Guard forces to make arrests so the Border Patrol 
had to be called in when arrests were needed. The use of out-
of-State Guardsmen for long-term missions in an involuntary 
status can hurt recruitment and retention.
    Customs and Border Protection officials noted the temporary 
nature of guard availability for border security makes it hard 
to include the Guard in a strategic border security plan. That 
is because the Guard has other missions, such as the disaster 
assistance, and may not be available when needed.
    Now I will return to second point. Some benefits and 
challenges from increased air coverage along the border. Some 
benefits from an unmanned aerial vehicles include improved 
coverage along remote sections of the border; more precisely, 
real-time imagery and longer mission duration since a Predator 
Bee, for example, can fly up to 30 hours without landing to 
change pilots.
    However, there are some challenges, too, such as limited 
availability when the vehicles are being used overseas by DOD, 
and limited access to National airspace due to concerns about 
the ability of unmanned vehicles to sense and avoid other 
aircraft in flight.
    On the other hand, manned aircraft may cost more to fly, 
but have more immediate access to National airspace, since on-
board pilots, in fact, can sense and avoid other aircraft in 
flight. It is important to note, DOD told us they did not 
actually use unmanned aerial systems for border security in the 
two operations because the systems were deployed overseas at 
that time.
    Now my final point. Some things you may wish to keep in 
mind if DOD's participation in border security is to be 
expanded. DOD officials were concerned about the absence of a 
comprehensive border security strategy. So they felt it was 
harder to plan DOD's role. Department of Homeland Security 
officials were concerned that DOD forces are not always 
available, since they have other operational requirements. The 
border needs continuous security.
    Department of State and DOD officials were concerned about 
creating a perception of a militarized U.S. border with Mexico, 
and Federal Aviation Administration officials are concerned 
about airspace safety due to concerns about the ability of the 
unmanned systems to detect and avoid other aircraft. Thus it 
might be prudent to consider these issues if there is to an 
expanded border security mission for DOD.
    Madam Chairwoman, this concludes my prepared remarks. I 
would be happy to answer any question that you or the other 
Members of the subcommittee may have.
    [The statement of Mr. Lepore follows:]
                 Prepared Statement of Brian J. Lepore
                             April 17, 2012
                             gao highlights
    Highlights of GAO-12-657T, a testimony before the Subcommittee on 
Border and Maritime Security, House Committee on Homeland Security.
Why GAO Did This Study
    DHS reports that the Southwest Border continues to be vulnerable to 
cross-border illegal activity, including the smuggling of humans and 
illegal narcotics. Several Federal agencies are involved in border 
security efforts, including DHS, DOD, Justice, and State. In recent 
years, the National Guard has played a role in helping to secure the 
southwest land border by providing the Border Patrol with information 
on the identification of individuals attempting to cross the Southwest 
land border into the United States. Generally, the National Guard can 
operate in three different statuses: (1) State status--State-funded 
under the command and control of the Governor; (2) Title 32 status--
Federally funded under command and control of the Governor; and (3) 
Title 10 status--Federally funded under command and control of the 
Secretary of Defense.
    This testimony discusses: (1) The costs and benefits of a DOD role 
to help secure the southwest land border, including the deployment of 
the National Guard, other DOD personnel, or additional units; (2) the 
challenges of a DOD role at the southwest land border; and (3) 
considerations of an increased DOD role to help secure the southwest 
land border.
    The information in this testimony is based on work completed in 
September 2011, which focused on the costs and benefits of an increased 
role of DOD at the southwest land border. See Observations on the Costs 
and Benefits of an Increased Department of Defense Role in Helping to 
Secure the Southwest Land Border, GAO-11-856R (Washington, DC: Sept. 
12, 2011).
border security.--observations on costs, benefits, and challenges of a 
  department of defense role in helping to secure the southwest land 
                                 border
What GAO Found
    The National Defense Authorization Act for Fiscal Year 2011 
mandated that GAO examine the costs and benefits of an increased 
Department of Defense (DOD) role to help secure the southwest land 
border. This mandate directed that GAO report on, among other things, 
the potential deployment of additional units, increased use of ground-
based mobile surveillance systems, use of mobile patrols by military 
personnel, and an increased deployment of unmanned aerial systems and 
manned aircraft in National airspace. In September 2011, GAO reported 
that DOD estimated a total cost of about $1.35 billion for two separate 
border operations--Operation Jump Start and Operation Phalanx--
conducted by National Guard forces in Title 32 status from June 2006 to 
July 2008 and from June 2010 through September 30, 2011, respectively. 
Further, DOD estimated that it has cost about $10 million each year 
since 1989 to use active duty Title 10 forces Nation-wide, through its 
Joint Task Force--North, in support of drug law enforcement agencies 
with some additional operational costs borne by the military services. 
Agency officials stated multiple benefits from DOD's increased border 
role, such as assistance to the Department of Homeland Security (DHS) 
Border Patrol until newly-hired Border Patrol agents are trained and 
deployed to the border; providing DOD personnel with training 
opportunities in a geographic environment similar to current combat 
theaters; contributing to apprehensions and seizures and deterring 
other illegal activity along the border; building relationships with 
law enforcement agencies; and strengthening military-to-military 
relationships with forces from Mexico.
    GAO found challenges for the National Guard and for active-duty 
military forces in providing support to law enforcement missions. For 
example, under Title 32 of the United States Code, National Guard 
personnel are permitted to participate in law enforcement activities; 
however, the Secretary of Defense has precluded National Guard forces 
from making arrests while performing border missions because of 
concerns raised about militarizing the U.S. border. As a result, all 
arrests and seizures at the Southwest Border are performed by the 
Border Patrol. Further, DOD officials cited restraints on the direct 
use of active duty forces, operating under Title 10 of the United 
States Code in domestic civilian law enforcement, set out in the Posse 
Comitatus Act of 1878. In addition, GAO has reported on the varied 
availability of DOD units to support law enforcement missions, such as 
some units being regularly available while other units (e.g., ground-
based surveillance teams) may be deployed abroad--making it more 
difficult to fulfill law enforcement requests.
    Federal officials stated a number of broad issues and concerns 
regarding any additional DOD assistance in securing the Southwest 
Border. DOD officials expressed concerns about the absence of a 
comprehensive strategy for Southwest Border security and the resulting 
challenges to identify and plan a DOD role. DHS officials expressed 
concerns that DOD's border assistance is ad hoc in that DOD has other 
operational requirements. DOD assists when legal authorities allow and 
resources are available, whereas DHS has a continuous mission to ensure 
border security. Further, Department of State and DOD officials 
expressed concerns about the perception of a militarized U.S. border 
with Mexico, especially when Department of State and Justice officials 
are helping civilian law enforcement institutions in Mexico on border 
issues.
    Chairman Miller, Ranking Member Cuellar, and Members of the 
subcommittee: I am pleased to be here today to discuss our observations 
on the costs, benefits, and challenges of a Department of Defense (DOD) 
role in helping to secure the southwest land border. The Department of 
Homeland Security (DHS) reports that the Southwest Border continues to 
be vulnerable to cross-border illegal activity, including the smuggling 
of humans and illegal narcotics. Several Federal agencies are involved 
in border security efforts, including the Departments of Homeland 
Security, Defense, Justice, and State. In recent years, the National 
Guard has played a role in helping to secure the southwest land border 
by providing the Border Patrol with information on the identification 
of individuals attempting to cross the southwest land border into the 
United States. Last year, we reported to the Senate and House Armed 
Services Committees our observations on the use of the National Guard 
and active duty forces to help secure the southwest land border of the 
United States as directed by the Ike Skelton National Defense 
Authorization Act for Fiscal Year 2011.\1\
---------------------------------------------------------------------------
    \1\ See Pub. L. No. 111-383, 1057 (2011) for the mandate directing 
our review as well as GAO, Observations on the Costs and Benefits of an 
Increased Department of Defense Role in Helping to Secure the Southwest 
Land Border, GAO-11-856R (Washington, DC: Sept. 12, 2011).
---------------------------------------------------------------------------
    My statement today is based on our work conducted in 2011 and will 
examine: (1) The costs and benefits of a DOD role to help secure the 
southwest land border, including the deployment of the National Guard, 
other DOD personnel, or additional units; (2) the challenges associated 
with a DOD role at the southwest land border; and (3) considerations of 
an increased DOD role to help secure the southwest land border.
    To conduct this work, we reviewed our previous assessments of 
southwest land border security and key documents related specifically 
to DOD efforts at the southwest land border, such as the legal 
authorities governing military forces operating under State, Title 32, 
and Title 10 status; the cost and benefits of recent efforts by DOD to 
assist DHS, including Operation Jump Start (2006-2008) and Operation 
Phalanx (2010-2011); DOD after-action reports and evaluations related 
to recent DOD efforts to support law enforcement efforts at the 
southwest land border; strategic and operational plans, and guidance 
related to addressing security concerns at the southwest land border; 
funding and cost data and sources of funding related to the deployment 
of DOD personnel, equipment, unmanned aerial systems, and manned 
surveillance aircraft; and other key documents.
    In addition, to better understand the cost, benefits, and 
challenges of a DOD role in helping to secure the southwest land 
border, we met with and interviewed officials from DOD, including the 
Office of the Secretary of Defense, military services, National Guard 
Bureau, U.S. Northern Command, U.S. Army North, and Joint Task Force--
North. Further, to distinguish the impact of an increased DOD role in 
helping to secure the border, we spoke with officials from DHS, Customs 
and Border Protection (CBP) (including U.S. Border Patrol, Office of 
Air and Marine); the Department of Transportation, Federal Aviation 
Administration; and the Department of State, including the Bureau of 
International Narcotics and Law Enforcement Affairs and Office of 
Mexican Affairs.
    We performed the work on which this testimony is based in 
accordance with generally accepted Government auditing standards. 
Additional information on our scope and methodology can be found in the 
published report.
                               background
National Guard
    The National Guard, with its dual Federal and State roles, has been 
in demand to meet both overseas operations and homeland security 
requirements. Over the last decade the National Guard has experienced 
the largest activation of its forces since World War II. At the same 
time, the Guard's domestic activities have expanded from routine 
duties, such as responding to hurricanes, to include activities such as 
helping to secure U.S. borders. Generally, the National Guard can 
operate in three different statuses: (1) State status--State-funded 
under the command and control of the Governor; (2) Title 32 status--
Federally-funded under command and control of the Governor (Title 32 
forces may participate in law enforcement activities); and (3) Title 10 
status--Federally-funded under command and control of the Secretary of 
Defense. Forces serving in Title 10 status are generally prohibited 
from direct participation in law enforcement activities, without proper 
statutory authorization, but may work to support civilian law 
enforcement. Although National Guard forces working in support of law 
enforcement at the southwest land border have been activated under 
Title 32, the Secretary of Defense has limited their activities with 
regard to law enforcement. Specifically, these National Guard forces 
are not to make arrests. Since 2006, the National Guard has supported 
DHS's border security mission in the four Southwest Border States 
(California, Arizona, New Mexico, and Texas) through two missions:
  <bullet> Operation Jump Start (June 2006-July 2008) involved 
        volunteers from the border States and from outside the border 
        States; its mission included aviation, engineering, and entry 
        identification, among others, according to National Guard 
        officials.
  <bullet> Operation Phalanx (July 2010-September 30, 2011) involved 
        volunteer units and in-State units. The Secretary of Defense 
        limited the National Guard mission to entry identification, 
        criminal analysis, and command and control, according to 
        National Guard officials.
Active Duty Military Forces
    In addition to the National Guard, DOD provided support at the 
southwest land border with active duty military forces operating in 
Title 10 status. While active duty forces are normally prohibited from 
direct participation in law enforcement, Congress has at times 
authorized it. For example, 1004 of the National Defense Authorization 
Act for Fiscal Year 1991, as amended, allows the Secretary of Defense 
to provide support for the counterdrug activities of any other 
department or agency of the Federal Government or of any State, local, 
or foreign law enforcement agency if certain criteria, set out in the 
statute, are met.
  costs and benefits of a dod role in helping to secure the southwest 
                              land border
    Various factors influence the cost of a DOD role at the southwest 
land border, such as the scope and duration of the mission. Federal 
agency officials have cited a variety of benefits from having a DOD 
role at the southwest land border.
Factors that Affect the Cost of a DOD Role at the Southwest Land Border
    The National Defense Authorization Act for Fiscal Year 2011 
mandated that we examine the costs and benefits of an increased DOD 
role to help secure the southwest land border. This mandate directed 
that we report on a number of steps that could be taken that might 
improve security on the border, including the potential deployment of 
additional units, increased use of ground-based mobile surveillance 
systems, use of mobile patrols by military personnel, and an increased 
deployment of unmanned aerial systems and manned aircraft to provide 
surveillance of the southern land border of the United States.\2\ In 
September 2011, we reported that DOD estimated a total cost of about 
$1.35 billion for two separate border operations--Operation Jump Start 
and Operation Phalanx--conducted by the National Guard forces in Title 
32 status from June 2006 to July 2008 and from June 2010 through 
September 30, 2011, respectively. Further, DOD estimated that it has 
cost about $10 million each year since 1989 to use active duty Title 10 
forces Nation-wide, through its Joint Task Force--North, in support of 
drug law enforcement agencies with some additional operational costs 
borne by the military services.\3\
---------------------------------------------------------------------------
    \2\ See GAO-11-856R.
    \3\ The Deputy Assistant Secretary of Defense for Counternarcotics 
receives about $1.1 billion annually for counternarcotics efforts, of 
which about $10 million goes towards law enforcement mission support 
needs Nation-wide, according to DOD officials.
---------------------------------------------------------------------------
    As we considered the various steps we were directed to address in 
our report, we found that the factors that may affect the cost of a DOD 
effort are largely determined by the legal status and the mission of 
military personnel being used, specifically whether personnel are 
responding under Title 32 or Title 10 (Federal status) of the Unites 
States Code. For example, in considering the deployment of additional 
units, if National Guard forces were to be used in Title 32 status, 
then the factors that may impact the cost include whether in-State or 
out-of-State personnel are used, the number of personnel, duration of 
the mission, ratio of officers to enlisted personnel, and equipment and 
transportation needs. The costs of National Guard forces working at the 
border in Title 32 status can also be impacted by specific missions. 
For example, DOD officials told us that if National Guardsmen were 
assigned a mission to conduct mobile patrols, then they would be 
required to work in pairs and would only be able to perform part of the 
mission (i.e., to identify persons of interest). They would then have 
to contact the Border Patrol to make possible arrests or seizures 
because the Secretary of Defense has precluded National Guardsmen from 
making arrests or seizures during border security missions. Border 
Patrol agents, however, may individually conduct the full range of 
these activities, thus making the use of Border Patrol agents for these 
activities more efficient.
    At the time of our review, Title 10 active-duty military forces 
were being used for missions on the border, and cost factors were 
limited primarily to situations whereby DOD may provide military 
support to law enforcement agencies for counternarcotic operations. 
Support can include direct funding, military personnel, and equipment. 
With the estimated $10 million that DOD spends each year for Title 10 
active-duty forces in support of drug law enforcement agencies Nation-
wide, DOD is able--through its Joint Task Force--North--to support 
approximately 80 of about 400 requests per year for law enforcement 
assistance. These funds have been used for activities in support of law 
enforcement such as operations, engineering support, and mobile 
training teams. For example, DOD was able to provide some funding for 
DOD engineering units that constructed roads at the border. While DOD 
provided the manpower and equipment, CBP provided the materials. In 
addition, DOD was able to provide some funding for DOD units that 
provided operational support (e.g., ground-based mobile surveillance 
unit) to law enforcement missions.
    We also reported on the cost factors related to deploying manned 
aircraft and unmanned aerial systems. DOD officials did not report any 
use of unmanned aerial systems for border security missions because 
these systems were deployed abroad. DOD officials, however, did provide 
us with cost factors for the Predator and Reaper unmanned aerial 
systems. Specifically, in fiscal year 2011, the DOD Comptroller 
reported that a Predator and a Reaper cost $859 and $1,456 per flight 
hour, respectively. DOD uses maintenance costs, asset utilization 
costs, and military personnel costs to calculate these figures. In 
addition, DOD officials identified other factors that may impact 
operating costs of unmanned aerial systems, including transportation 
for personnel and equipment, rental or lease for hanger space, and 
mission requirements.
    With regard to manned aircraft, DOD provided cost factors for a 
Black Hawk helicopter and a C-12 aircraft, which were comparable to the 
type of rotary and fixed-wing aircraft used by DHS. For example, in 
fiscal year 2011, DOD reported that a Black Hawk helicopter and a C-12 
aircraft cost $5,897 and $1,370 per flight hour, respectively. DOD uses 
maintenance costs, asset utilization costs, and military personnel 
costs to develop their flight-hour estimates. Furthermore, according to 
DOD officials, in fiscal year 2011, DOD contracted for a Cessna 
aircraft with a forward-looking infrared sensor (known as the Big 
Miguel Program), which costs $1.2 million per year and assisted at the 
southwest land border.
Federal Officials See Some Benefits of a DOD Role in Helping to Secure 
        the Border
    Federal officials cited a variety of benefits from a DOD role to 
help secure the southwest land border. For example, DOD assistance has: 
(1) Provided a bridge or augmentation until newly hired Border Patrol 
agents are trained and deployed to the border; (2) provided training 
opportunities for military personnel in a geographic environment 
similar to combat theaters abroad; (3) contributed to apprehensions and 
seizures made by Border Patrol along the border; (4) deterred illegal 
activity at the border; (5) built relationships with law enforcement 
agencies; and (6) maintained and strengthened military-to-military 
relationships with forces from Mexico. Specifically with regard to 
Operation Jump Start (June 2006-July 2008), CBP officials reported that 
the National Guard assisted in the apprehension of 186,814 undocumented 
aliens, and in the seizure of 316,364 pounds of marijuana, among other 
categories of assistance, including rescues of persons in distress and 
the seizure of illicit currency. Based on these reported figures, the 
National Guard assisted in 11.7 percent of all undocumented alien 
apprehensions and 9.4 percent of all marijuana seized on the southwest 
land border.\4\ During the National Guard's Operation Phalanx (July 
2010-June 30, 2011), CBP reported that as of May 31, 2011, the National 
Guard assisted in the apprehension of 17,887 undocumented aliens and 
the seizure of 56,342 pounds of marijuana. Based on these reported 
figures, the National Guard assisted in 5.9 percent of all undocumented 
alien apprehensions and 2.6 percent of all marijuana seized on the 
southwest land border. In fiscal year 2010, active duty military forces 
(Title 10), through Joint Task Force--North, conducted 79 missions with 
842 DOD personnel in support of law enforcement and assisted in the 
seizure of about 17,935 pounds of marijuana, assisted in the 
apprehension of 3,865 undocumented aliens, and constructed 17.26 miles 
of road, according to DOD officials.\5\
---------------------------------------------------------------------------
    \4\ The official start date for Operation Jump Start was June 15, 
2006, and the official end date was July 15, 2008. Data from CBP is 
reported monthly, and as the beginning and end dates of Operation Jump 
Start fell in the middle of the calendar month, for the purposes of 
this analysis, the 24-month period analyzed was July 2006 (the first 
full month of the mission) through June 2008 (the last full month of 
the mission).
    \5\ Statistics on apprehension and seizure amounts were provided to 
DOD by CBP. DOD does not independently collect information on 
apprehensions and seizures, since DOD is not involved in those aspects 
of the law enforcement mission.
---------------------------------------------------------------------------
    With regard to unmanned aerial systems at the time of our report, 
DOD had fewer systems available, since they were deployed to missions 
abroad, including operations in Afghanistan, Iraq, and elsewhere.
    Moreover, DOD's access to the National airspace is constrained 
given the safety concerns about unmanned aerial systems raised by the 
Federal Aviation Administration, specifically the ability of the 
unmanned aerial system to detect, sense, and avoid an aircraft in 
flight. We also reported that, conversely, pilots of manned aircraft 
have the ability to see and avoid other aircraft, and thus may have 
more routine access to the National airspace. Further, DOD reports that 
manned aircraft are effective in the apprehension of undocumented 
aliens. For example, during fiscal year 2011, DOD leased a manned 
Cessna aircraft (the Big Miguel Program) that was used to assist in the 
apprehension of at least 6,500 undocumented aliens and the seizure of 
$54 million in marijuana, as reported to DOD by DHS.
challenges of a dod role in helping to secure the southwest land border
    A number of challenges exist for both the National Guard and for 
active-duty military forces in providing support to law enforcement 
missions on the southwest land border.
National Guard
    National Guard personnel involved in activities on the border have 
been under the command and control of the Governors of the Southwest 
Border States and have received Federal funding in Title 32 status. In 
this status, National Guard personnel are permitted to participate in 
law enforcement activities; however, the Secretary of Defense has 
limited their activities, which has resulted in the inability of the 
National Guard units to make arrests while performing border security 
missions. The National Guard mission limitations are based in part on 
concerns raised by both DOD and National Guard officials that civilians 
may not distinguish between Guardsmen and active-duty military 
personnel in uniform, which may lead to the perception that the border 
is militarized. Therefore, all arrests and seizures at the southwest 
land border are performed by the Border Patrol.
    Additionally, we found that the temporary use of the National Guard 
to help secure the border may give rise to additional challenges. For 
example, we reported that the use of out-of-State Guardsmen for long-
term missions in an involuntary status may have an adverse effect on 
future National Guard recruitment and retention, according to National 
Guard officials. Finally, CBP officials noted that the temporary nature 
of National Guard duty at the border could impact long-term border 
security planning. These impacts are due to difficulties of 
incorporating the National Guard into a strategic border security plan, 
given the variety and number of missions that the National Guard is 
responsible for, including disaster assistance.
Active Duty Military Forces
    In meeting with DOD officials, we heard of multiple challenges to 
providing support to law enforcement missions. Specifically, there are 
legal restraints and other challenges that active duty forces must be 
mindful of when providing assistance to civilian law enforcement. For 
example, the 1878 Posse Comitatus Act, 18 U.S.C. 1385, prohibits the 
direct use of Title 10 (Federal) forces in domestic civilian law 
enforcement, except where authorized by the Constitution or an act of 
Congress. However, Congress has authorized military support to law 
enforcement agencies in specific situations such as support for the 
counterdrug activities of other agencies.\6\
---------------------------------------------------------------------------
    \6\ See Pub. L. No. 101-510,  1004 (1990), as amended. For 
additional examples of statutes in which Congress has authorized 
military support to law enforcement, see 10 U.S.C.  124 and 10 U.S.C. 
 371-382. See also 10 U.S.C.  375, which directs the Secretary of 
Defense to prescribe regulations to ensure that activities carried out 
in support of civilian law enforcement agencies, under the authorities 
provided in Chapter 18 of Title 10 of the United States Code, do not 
include or permit direct participation by a member of the Army, the 
Navy, the Air Force, or the Marine Corps in a search, seizure, arrest 
or other similar activity unless participation in such activity by such 
member is otherwise authorized by law.
---------------------------------------------------------------------------
    DOD further clarifies restrictions on direct assistance to law 
enforcement with its guidance setting out the approval process for 
Title 10 forces providing operational support for counternarcotic law 
enforcement missions.\7\ The request of law enforcement agencies for 
support must meet a number of criteria, including that the mission 
must:
---------------------------------------------------------------------------
    \7\ Deputy Secretary of Defense Memorandum, Department Support to 
Domestic Law Enforcement Agencies Performing Counternarcotic Activities 
(October 2, 2003).
---------------------------------------------------------------------------
  <bullet> Have a valid counterdrug nexus.
  <bullet> Have a proper request from law enforcement (the request must 
        come from an appropriate official, be limited to unique 
        military capabilities, and provide a benefit to DOD or be 
        essential to National security goals).
  <bullet> Improve unit readiness or mission capability.
  <bullet> Provide a training opportunity to increase combat readiness.
  <bullet> Avoid the use of Title 10 forces (military services) for 
        continuing, on-going, long-term operation support commitments 
        at the same location.
    Given the complexity of legal authorities and policy issues related 
to DOD providing support to law enforcement and the number of DOD 
entities that must approve a support mission by Title 10 forces, it can 
take up to 180 days to obtain final approval from the Office of the 
Secretary of Defense to execute a mission in support of law 
enforcement. While supporting law enforcement, DOD may be subject to 
certain limitations. For example, one limitation is that DOD units 
working on border missions cannot carry loaded weapons. Instead, DOD 
units working on the border rely on armed Border Patrol agents, who are 
assigned to each military unit to provide protection.
    In addition, we reported in September 2011 that DOD's operational 
tempo may impact the availability of DOD units to fill law enforcement 
support missions. While some DOD units are regularly available to meet 
specific mission needs at the border (e.g., mechanized units to 
construct roads), other DOD units (e.g., ground-based surveillance 
teams) are deployed or may be deployed abroad making it more difficult 
to fulfill law enforcement requests at any given time. Further, DOD 
officials we spoke with also raised information-sharing challenges when 
providing support to law enforcement missions. For example, DOD 
officials commented that because there are different types of law 
enforcement personnel that use information differently (e.g., make an 
immediate arrest or watch, wait, and grow an investigation leading to a 
later arrest), it was sometimes difficult for DOD to understand whether 
information sharing was a priority among law enforcement personnel. DOD 
officials also noted that a lack of security clearances for law 
enforcement officials affects DOD's ability to provide classified 
information to CBP.
  considerations of an increased dod role at the southwest land border
    During our examination of an increased role for DOD at the 
southwest land border, agency officials we spoke with raised a number 
of broader issues and concerns surrounding any future expansion of such 
assistance. Agency officials identified four areas of concern:
  <bullet> DOD officials expressed concerns about the absence of a 
        comprehensive strategy for Southwest Border security and the 
        resulting challenges to identify and plan a DOD role.
  <bullet> DHS officials expressed concerns that DOD's border 
        assistance is ad hoc in that DOD has other operational 
        requirements. DOD assists when legal authorities allow and 
        resources are available, whereas DHS has a continuous mission 
        to ensure border security.
  <bullet> Department of State and DOD officials expressed concerns 
        that greater or extended use of military forces on the border 
        could create a perception of a militarized U.S. border with 
        Mexico, especially when Department of State and Justice 
        officials are helping support civilian law enforcement 
        institutions in Mexico to address crime and border issues.
  <bullet> Federal Aviation Administration officials, who are part of 
        the Department of Transportation, stated that they are 
        concerned about safety in the National airspace, due to 
        concerns about the ability of unmanned aerial systems to 
        detect, sense, and avoid an aircraft in flight. The Federal 
        Aviation Administration has granted DHS authority to fly 
        unmanned aerial systems to support its National security 
        mission along the U.S. southwest land border, and is working 
        with DOD, DHS, and the National Aeronautics and Space 
        Administration to identify and evaluate options to increase 
        unmanned aerial systems access in the National airspace.
    We did not make any recommendations in our September 2011 report.
    Chairman Miller, Ranking Member Cuellar, and Members of the 
subcommittee, this concludes my prepared statement. I am pleased to 
answer any questions that you may have at this time.

    Mrs. Miller. Thank you very much, and I appreciate all 
witnesses for all of your testimony. Thank you.
    One thing I would say at the outset that has been an issue 
is I think that there needs to be more of a meld between the 
Department of Defense and the Department of Homeland Security 
in ways, in every aspect. [Inaudible]. We need to talk about 
how it is a hindrance to DHS by not being able to utilize some 
of the current fiscal resources that we have in the inventory 
of DOD.
    Particularly when thinking about shutting down or reducing 
the National Guard. But as well as, particularly now, all of 
these assets that are coming back--DOD assets coming back. Now 
we are bringing so much back, it does have applications for 
local first responders but, certainly, the National Guard in 
all of our States and CBP, as well.
    I know as I talk with many of you, you have taken advantage 
of some of the tremendous resources that are coming back. I 
hope that is really going to be continuing, particularly in the 
case of the National Guard in Texas. I am not sure if you have 
any comment on what kinds of ways the Texas Guard, for 
instance, has been able to utilize some or all of the kinds of 
resources that are coming back.
    As well, I think both the Guard and CBP would be glad that 
not only are resources coming back, the men and women who are 
returning are capable to utilize all this equipment. Do you 
have any comment on that?
    General Nichols. Madame Chairwoman, we haven't really seen 
that equipment yet coming our way. It has mostly been directed 
to the State, where I think that the need is, and State and 
local law enforcement folks. So, we are looking at that. We 
have talked to Secretary Stockton about how we can get some of 
that equipment to the State. We got a little bit of it to the 
DPS, the Department of Public Safety.
    I know the firefighting equipment comes over. Some of it 
doesn't look like firefighting equipment, but they can use it. 
The surveillance equipment is getting pushed down to the DPS 
and the State and locals. It actually comes from the military 
to the civilian law enforcement agencies.
    Mrs. Miller. I appreciate that. I appreciate that, General. 
I would just suggest that you really take a look at that. Take 
a look at equipment coming back. Thanks.
    General Nichols. Absolutely. Thank you.
    Mrs. Miller. So I just mention that. Also, one other 
question I was interested in, your Joint Counterdrug Task 
Force, is you were talking about your counterdrug force that 
you had. Is that unique for the Texas Guard?
    General Nichols. No ma'am, it is Nation-wide. It is a $179 
million program. It is funded for all 54 States, territories, 
and the District. Some States are larger. The border States 
tend to be larger, but there are other States with higher drug 
traffic that are larger. Now, we get you the data on the budget 
for each State.
    The alarming feature though--pardon me, the alarming item--
is that we are getting that cut in half. It is not a jobs 
program, it is a drug prevention program. It is tied to crime, 
it is tied to American society. It is tied to stopping 
trafficking on the border. As I said, the counterdrug personnel 
work with Customs and Border Patrol, work with the DPS, work 
with the local law enforcement--at least 70 agencies along the 
border--to counter the trafficking of drugs and all the other 
operations that are associated with that.
    Human trafficking because they are having people carry 
drugs over the border now. If you want to get across the 
border, here is your fee. You are going to pay me money and 
here is your fee--carry this, too. So when we have 
apprehensions, we are stopping drug trafficking, but we are 
also helping stop illegals from coming across.
    If you want to look at the metrics again, it is a $75 
million reduction that is being taken out. It is $75 million 
worth, $9 billion to $10 billion worth of production or 
prevention. I estimate that if we just add a linear regression 
there, if we take away half of the counterdrug force, we may 
lose half their effectiveness.
    Mrs. Miller. Thank you. I am a huge fan--I think we all 
are--of the National Guard. I mean, a case can be made in a 
business matrix, a budgetary consideration, about how cost-
effective the National Guard is.
    I know, Mr. Lepore, you were speaking on how much more 
expensive out-of-State units cost. Now, I don't think we have 
had out-of-State units for some period along the border.
    Some out-of-State units have been addded more recently to 
the National Guard troops along the border. Which is fine, I 
guess, in some way. However, really, the border is not just the 
concern of those particular States. It is a part of the 
Constitution for the country to protect our borders.
    So if we have problems in Michigan, it's a National problem 
and the Border Patrol is completely responsible for doing that, 
it seems to me--and this might be for Mr. Lepore or the 
general, again, or whoever wants to take a hit at this--but it 
would seem to me that it would be most appropriate for National 
Guard units from all their respective States to take their turn 
in rotation to help protect the borders, whichever border we 
would send them to.
    Although as Mr. Lepore points out, I think from a cost-
effectiveness standpoint and a training standpoint, the 
taxpayers trust National Guard.
    Mr. Lepore. Yes. I think, Madam Chairwoman, you make a 
great point about the training. I think that is a really 
important point. There are a couple of aspects to it that I 
would suggest. One, when out-of-State Guard forces are going to 
be used there is a training benefit from simply picking up the 
course, selecting up the equipment and transporting it from 
wherever it is to wherever it is going.
    So, there is absolutely a training benefit. It enhances the 
ability of that particular Guard unit to deploy to any 
particular mission, whether it is a domestic mission or an 
overseas mission. So I think that is a great point. I think the 
other important point--and you touched on it, and I think it is 
exactly right--is, there is a benefit from actually doing the 
mission, as well.
    Let me give you an example from the Southwest Border, from 
Operation Phalanx and Jump Start. One of the benefits that we 
identified in our report is that the Guard was operating in an 
environment that was in the desert southwest that is very 
similar to some of the environments they were operating in in 
overseas locations. So there absolutely is an important 
training benefit in both of those respects.
    Mrs. Miller. One of the comments--then I am sort of running 
over my time here--but talking about the training benefit. 
Believe me, I understand the risks along the borders. However, 
it does seem if there are Mexican guards conducting operations 
on their side, we should be patroling ours.
    It was mentioned in the testimony today, when the National 
Guard gave their statement, that they have to contact the 
Customs and Border Patrol in order to make any arrests. Is it 
true that they are not even armed, or don't have ammunition in 
their arms, when that happens? I have that concern.
    General Nichols. Madam Chairwoman, that is not true. When 
we had troops on the border for the most recent, all of our 
soldiers were armed, they had body armor on them also. They 
couldn't apprehend, but there is a policy decision. The 
National Guard members can't apprehend. We have a law 
enforcement person there so that we are not militarizing the 
border.
    We happen to be just--we are helping with deterrence at the 
border. We see the folks, then we will call Customs and Border 
Patrol, or local law enforcement for that matter. Many times 
you do have to try to stop folks. If you are down on the Rio 
Grande and cross the river, and if a person can get across the 
border and change their clothes in 45 seconds, they are part of 
the country now.
    We don't know where they came from, and if they are 
unarmed. But they are armed, and they are allowed to defend 
themselves. There are very strict rules of the use of force 
there. So, we are not undefended. You will see that the Title 
10 forces that come to the border sometimes are not armed. From 
the States' rights perspective, that is with me.
    Mrs. Miller. Thank you very much, General. My time has 
expired here, but I just again want to say how much we 
appreciate all that the National Guard has done along the 
border. The National Guard have once again demonstrated to the 
country that it is effective in providing security--whether 
that is in-theater or whether it is in the 30th percentile of 
the Guard and Reserve or in the theater or on our Nation's 
borders.
    At this time, I would recognize my Ranking Member, the 
gentleman from Texas.
    Mr. Cuellar. Thank you very much. Again, I want to thank 
all of you all for the service which you all provide.
    Since 2006, the Department of Defense has spent 
approximately $1.4 billion in National Guard support under the 
Department of Homeland Security in border security. We know 
that there has been questions about the National Guard. But we 
do know that on December 31, 2010 the current operation funding 
expires.
    Therefore, my question is: What happens after this 
particular December 31, 2010? What do we have to do so we can 
get that funding? My question, Secretary--and again, thank you 
for all the work that you do--I looked at the funding Texas got 
in 2011.
    Secretary, again, thank you for all the work that you do. I 
looked at, for example, what Texas has done in the past in 
2011, and I know the Border Patrol and BPS were one of the 
largest receivers of equipment, plus maybe with the exception 
of one or two areas in the border area, everything went up to 
the central part of the State of Texas. But I guess my question 
is, instead of making them wait for somebody to make that 
request, Mr. Secretary--and I saw, I think it was with Mr. 
Duncan who saw--the equipment that is out there.
    It is a tremendous amount of equipment that is available. I 
can see how Border Patrol can use that equipment. I can see how 
the National Guard can use that equipment. For example, I would 
ask General Nichols right now to yield some of the equipment 
that is out there that is available to be used. I know because 
I have asked you that question already.
    If I would ask the Border Patrol representative here, is 
there something else, any area of support that you would look 
at, I bet they would say, yes. Is there any way? Could you all 
just sit down and say, what do you need that we could transport 
that? Taxpayers' dollars have been used already. I have seen 
the equipment the last time, Mr. Duncan was out there in Iraq.
    We saw the equipment is out there. I know there is--you 
would ask them, they will give you a laundry list of equipment 
that would be available. Not only the aerial equipment but also 
for example, you know, some of the intelligence centers that 
are being created right now. I know Robert Harris is looking at 
one for the border down there. The intelligence equipment that 
could be available, couldn't we just get--Mr. Stockton, 
couldn't we all just sit down and say, ``What do we need?'' 
instead of waiting for--I know there is a process. I understand 
all that.
    But I would ask Mr. Nichols or maybe Mr. Vaughan if they 
would give you a list of the things that they know would be 
available right now--whether it is radar, whether it is other 
equipment, intelligence equipment that we use, monitors--I 
would ask if you do that.
    At the same time, if you look at the GAO reports, one of 
the concerns the Department of Defense says is that there is no 
comprehensive strategy by Homeland. Homeland is going to say, 
oh, we do have a strategy. My understanding is at least the 
Department started to plan a strategy in December--I might be 
wrong--but in December you all started passing that information 
to senior members of Border Patrol, and the border, and they 
are supposed to be receiving this information.
    We haven't seen it yet. But my understanding is, that 
information has already been sent out there. It has been signed 
and received by senior members out there. I guess part of this, 
Mr. Stockton, is, on that strategy that they put there, I don't 
know if you already asked Border Patrol or Homeland, do you 
include this in that strategy? What is our role there?
    Or General Nichols, if you ask Border Patrol, have you 
asked us are we part of that strategy? My guess is the Chairman 
asked them, the folks that are here. Mr. Nichols have you been 
asked to be a part of that strategy?
    General Nichols. No, sir.
    Mr. Cuellar. Mr. Stockton, that might be maybe a different 
Secretary. But have you been asked to be part of that strategy?
    Mr. Stockton. Well, I will defer to my Department of 
Homeland Security colleagues to address their own strategic 
policy formulation.
    Mr. Cuellar. My question: Have you been asked to provide 
input in that overall strategy?
    Mr. Stockton. I have been in constant contact with my 
partners at DHS and CBP in order to support their development 
of their own policies and strategies for the future.
    Mr. Cuellar. My question is: Have you had input in the 
overall strategy? You are not answering the question. Have you 
been involved in the support? Has somebody been involved in the 
strategy? GAO is saying that there is not.
    I am just saying that--and I am not criticizing anybody--I 
am just saying why can't we just sit down and tell us, hey, can 
we get involved in your strategy? Can we help you develop that? 
Can we give you some input? Here is the equipment we have 
available. What do you need?
    If we have it available, here is what we can provide to you 
all.
    Mr. Stockton. Congressman Cuellar, I will get back to you 
on the record with a very detailed answer. But I will say that 
when it comes to the Domestic Preparedness Support Initiative 
where we share DOD equipment and technology with our partners--
Federal, State, and local and all the other activities that we 
have to support DHS and our Federal law enforcement partners 
there--there, as you know, we have a very aggressive outreach 
program. We don't wait for people to come to us.
    We have State coordinators who are responsible for 
gathering and prioritizing requests for support from the 
Department of Defense with all of this equipment that is 
available.
    With our partners in the Defense Logistics Agency, we very 
aggressively push out, via web page, via all kinds of other 
presence, knowledge about the availability of particular 
categories of equipment so that we can marry up requirements 
that exist--Federal, State, and local law enforcement--with the 
increasing flow of equipment coming back from the war.
    Mr. Cuellar. I appreciate the work that you do. But let me 
just give you an example and we can short-circuit this again.
    General Nichols, do you have anything that Homeland--I 
mean, that Defense asset might be of interest to you to use for 
border security?
    General Nichols. Sir, you know, through the counterdrug 
program we have quite a bit of equipment that we would use.
    Mr. Cuellar. But do you have anything that could be helpful 
to you that you might want to acquire from the Department of 
Defense?
    General Nichols. Sir, I am going to have to tell you that I 
don't know the answer to that myself.
    Mr. Cuellar. I am sorry to be putting you on the spot----
    General Nichols. That is okay.
    Mr. Cuellar [continuing]. But I think I know what the 
answer is. All I am saying is, if you all can just sit and talk 
to each other about the overall strategy, tell us what you 
need, give us a list. I understand we are going to the 
website--but I understand that we are not. I understand that.
    But a simple phone call from one of you all to one of the 
other ones to say, tell us what you need so we can go in and 
short-circuit this and provide the equipment out there. I am 
not criticizing. I am just looking at a little bit more 
efficiency and a little more practical approach on how we do 
our things.
    Anyway, if anyone could answer that question.
    Mr. Stockton. Yes, please. Our assistant secretary of 
defense for special operations and low-intensity conflict is 
responsible for our counternarcotics activities in the 
Department of Defense, and has an extremely close collaborative 
relationship both with the State National Guard organizations 
in Texas, Michigan, and elsewhere but also, of course, with our 
Federal law enforcement partners.
    They are responsible for very closely integrating the 
requests for support that come in from our partners with the 
DOD assets that we have available. So in that particular realm, 
in the counternarcotics realm, we have a terrific match-up.
    Mr. Cuellar. Again, thank you to all of you all. My time is 
over. But let me just say this. If you all can talk to each 
other about strategies and whatever we need, I think this would 
short-circuit a lot of what we are doing.
    Thank you.
    Chief Vitiello. Thank you. I would just like to add that as 
far as the strategic framework is concerned, it is a framework 
that allows for collaboration as we move into implementation. 
So that threshold is open, and DOD has been part of the 
creation of it in the fact that DOD has a member on our staff 
that helped us write the words that are in the strategy.
    I think as far as the equipment that we understand is 
overseas and will be returning to the United States, I think we 
have a very good story to tell on that. So we are--based on the 
input from the committee, the last time Chief Fisher was here 
you all tasked him to go look at what was all available because 
you had some information specifically to that.
    We have been trading the lists of equipment. We are 
looking, in fact, at what is most useful for the specific 
border environments where the need exists. We will get to a 
point where we can judge the costs and maintenance for these 
particular pieces of equipment, and then look to get the ones 
that are available and deploy them along the Southwest Border.
    Mrs. Miller. Thank you, gentlemen. I would just--as a 
follow-on, it is not just the equipment. It is the men and 
women that are trained so magnificently to utilize that. We 
have great applications for both the CBP and the National Guard 
members.
    Chief Vitiello. That is a wonderful point. As I was 
preparing for today's hearing, about 17,000 of CBP's 60,000 are 
veterans. So we always are looking for that as a recruitment 
avenue for bringing people into the workforce.
    Mrs. Miller. Excellent, excellent. I also would like to ask 
unanimous consent that Representative Gosar is welcome to join 
us today. We welcome you to the hearing. Without objection.
    The Chairwoman will recognize the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman.
    What I would like to do is, just for a second is to ask 
everyone to take off our Washington hats and get outside of the 
bubble that we operate in within the bureaucracies and whatnot, 
and think about this issue from the standpoint of the average 
American person out there who knows we have got the best-
equipped, best-trained United States military. They are better 
than anybody in the world.
    We have got a terrain that is similar, in the Southwest, to 
areas, as the gentleman mentioned earlier, to theaters of war 
that we are involved in right now. So when I go back to my 
district and I talk with folks about the porous Southern Border 
and issue of interdiction--whether it is drugs or illegal 
aliens coming in from the border--and other things that we are 
fearful may cross the Southern Border, they say, ``Why can't we 
send the military down there, put two or three operational 
bases within the Southwest Border, and train our guys that are 
going to Afghanistan or other areas, train them in that similar 
terrain and stop the illegal border crossings?''
    Stop the drugs coming into this country. Work in cohort 
with the CBP. That is what the average American out there 
thinks. But we are sitting here battling over jurisdiction and 
resources, and using an ad hoc approach. This is the question I 
am going to ask the gentleman in a minute--this ad hoc approach 
of, we are going to send the National Guard down there for a 
little while and then we are going to redeploy somewhere else.
    There is going to be a lag, and we will do it again a year 
from now. There needs to be a comprehensive strategy of 
utilizing not only the United States military and the Customs 
and Border Protection and ICE to do their mission. There needs 
to be a comprehensive, concerted effort to secure the Southern 
Border and work together. Put our jurisdictional, I guess, 
paradigms aside, and defend this country and defend our border.
    So the first question, General Nichols is: Would an 
increase in National Guard or DOD presence on the border--
although you have training exercises, troops on the ground--
would that serve as an effective deterrent to drug smuggling 
and illegal immigration?
    General Nichols. Thank you, sir. I think it depends on what 
you do on the border. If you are going to simply do exercises 
and they know that you are doing exercises, then you are just 
filling a little void to go around when you go by. You come 
down in an exercise, or in an operation like Phalanx--we call 
it River Watch 2--and have a coherent plan.
    Just blend it in with our partners, it will have a 
tremendous effect. Back up to the counterdrug program, that is 
well-vested into the protection of our border.
    Mr. Duncan. The way I see it, sir, is if I was part of the 
DTO and I was thinking about crossing the U.S. border, and I 
knew that there was a possibility I was going to to face the 
most well-equipped, well-trained United States military on the 
other side of the border, the possibility that I would run into 
those guys would be a tremendous deterrent to me. Because I 
wouldn't want to run into them.
    General Nichols. Yes, sir. When we had the boots on the 
ground, they didn't apprehend, or were responsible for 
apprehending, a lot of people. But folks didn't show up in that 
area that they were. They went around it. It helps the Customs 
and Border Patrol to be more effective on the edges.
    So we are the gaps in the fence, and the fence is broke 
down. We had our soldiers there 24/7 and could see folks coming 
and going. People did come through, U.S. citizens with proper 
identification. Because some of that wall, or some of that 
fence, is built inside U.S. property. It is not feasible to 
build right on the river in many cases.
    So we think that we are very effective in deterrence. We 
have a lot of turnarounds, they call it. Over 1,000 folks came 
up, saw us, and turned around. We also had people that look 
across this far, from me to Madam Chairwoman, and they just 
stand there and watch us. If we would turn our back and move 
away, they would be ready to go.
    It is like the Southwest Border is somewhat, in some ways, 
like Southwest Asia. But other places along the river, it is a 
river and it is a winding river. It is not the Rio Grande of 
the John Wayne days. It is a winding river that you can't see 
100 yards in either direction. You can go to 100 yards and you 
are done.
    So it takes more folks than that. I would bring up one 
point though. If given the mission in the coherent and cohesive 
plan, then assign it to the Guard and we will make it happen. 
As far as availability, we have got 450,000 National Guard 
members that are just as willing as their DOD partners to 
protect America, and I think support and protect America in 
America.
    Mr. Duncan. Thank you for your service.
    Madam Chairwoman, I am getting ready to go to the World War 
II Memorial for an honor, World War II veterans that served 
this country. I ask them these same questions. I believe this 
is an answer I would get. They would say, ``Are we really 
serious about completing the mission, securing our border? 
Because if we were, like we were at that point in time in 
defeating an enemy, this country can do anything it puts its 
mind to.''
    If we are serious about stopping drugs coming across our 
border, stopping illegal aliens, working on a comprehensive 
immigration reform package that the Ranking Member and I have 
talked about numerous times--if we are serious, that is--I 
believe the World War II veterans would look me in the eye and 
say. ``Congressman, if America is serious about dealing with 
this problem we can do so because we can do anything that we 
put our minds to.''
    With that, I yield back.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman recognizes the gentlelady from Texas.
    Ms. Jackson Lee. Madam Chairwoman, thank you for your 
kindness. To the members of the panel, let me thank you. I am 
in between two meetings, but I believe that this is a crucial 
meeting. I wanted to personally take the opportunity to thank 
the Chairwoman and Ranking Member.
    I just had the privilege of being at the Organization of 
American States, where we discussed a number of issues dealing 
with the issues that you are speaking of even today. Also, I 
want to thank the Chairwoman as well for these kinds of 
meetings.
    I just personally want to acknowledge the assistant 
secretary of defense for homeland defense, Mr. Stockton, and 
acknowledge the deputy chief of Border Patrol, Mr. Vitiello, 
and Mr. Vaughan. Certainly I would like to say, Madam 
Chairperson, hopefully advise my dear friend, Major General 
John Nichols. We have worked together, and I continue to 
appreciate your service. Certainly, Mr. Lepore.
    Gentlemen, just allow me for a moment--and again, let me 
thank Mr. Cuellar. We have shared a lot of conversation at the 
Organization of American States about the desperation of these 
countries as it relates to drug trafficking, drug cartels. 
Frankly, I think assets are probably needed in coalition with 
those countries. We can have somewhat of a different approach 
on our border, even though we want to be as clear as possible.
    Madam Chairwoman, I am just going to put in the record for 
a moment that we had an important incident in Colombia dealing 
with the Secret Service. I have had briefings. I want simply to 
put on the record, the Homeland Security Committee did not cede 
its jurisdiction on this question, and it is not prolonging its 
investigators. Everyone has acknowledged this incident, the 
Secret Service and the military.
    It will probably be the largest blight on the Secret 
Service in its 147-year history. I happen to support Director 
Sullivan, and I will continue to do so. But I believe, and I am 
calling for, a hearing on that issue. Because our work is to do 
the work that these gentlemen are speaking of and not the work 
of dealing with defaming or demeaning women, or possibly 
children.
    We don't know what the levels of the investigation will 
show--and I say that meaning I don't know what agencies that 
were--but I put on the record that I abhor human trafficking. I 
believe prostitution is not to be blamed on the actor, the 
woman, but it is an institution that we need to address. 
Certainly the action of the Secret Service on the jurisdiction 
on the Homeland Security Committee somehow be fully 
investigated by this committee.
    I sent a letter to our Chair and to our committee 
Chairperson--excuse me, our Ranking Member Thompson. Let me say 
that I join Mr. Cuellar in not wanting the border to be 
militarized. But I also join him in my enthusiasm for the Texas 
National Guard. One of my staffpersons is among the Texas Air 
National Guard. So I am delighted of the long-standing 
relationship at Ellington of working with the Government.
    So let me ask Major General Nichols. Because maybe people 
are unclear as to what you do. If you would just let us know 
what you do and could do to embrace in there, how is it 
compared to Operation Phalanx, if you would? I am going to ask 
my second question so we could just move on quickly.
    That question goes to Mr. Vaughan. It has to do with assets 
that the GSO concluded each Office of Air Marines have been 
unable to meet its own benchmark for fulfilling the Border 
Patrol's request for air support along the Southwest Border. To 
what gap? Who is responsible for that gap? If it is possible 
for CBP and Marines to improve its availability ability? Is 
there a point at which it becomes impossible to do this with 
less?
    So if you will follow up, let me go to General Nichols 
because people should know the work you do.
    I thank the Chairwoman.
    General Nichols. Thank you, Representative Jackson Lee. I 
will just talk about border security for Texas.
    Ms. Jackson Lee. Thank you.
    General Nichols. Previously, with Phalanx I, we had about 
289 soldiers. Most were on the border, again, 24/7 in a small 
area in the Rio Grande Valley. We also had about 15 soldiers 
and airmen in joint operations and information centers. They 
didn't gather intelligence. They were giving information, and 
they synergized it into operational plans.
    They were well-trained prior to that through the 
counterdrug programming. I don't want to keep beating on that 
program, but I point to that as one of the benchmarks for what 
the National Guard can do to help out the rest of our Nation in 
countering narcotics and trafficking. You named it today, human 
trafficking--the other byproducts of bringing narcotics into 
America.
    If that is not enough to do to stop narcotics, we stop the 
traffickers that bring it. We have shifted over now. We have 
demobilized those soldiers that are on the border. Now we are 
supporting Phalanx 2--we call that River Watch 2, it is Phalanx 
2--with about 12 helicopters down in a couple of locations. I 
would rather not say where they are, but they are very close to 
the border.
    Most of those folks are from other States. So we have a 
core team that are supporting them that is coordinating with 
the National Guard bureau, kind of in between the National 
Guard, Bureau and Customs and Border Patrol's focus to maintain 
those relationships that we built over Phalanx I. We are just 
now, I think, starting to see the benefits of those operations 
with the helicopters flying.
    We have been doing it for about a month-and-a-half. It has 
been very productive. But as we continue, the more we go the 
better we will get.
    Ms. Jackson Lee. Thank you for your words.
    Madam Chairwoman, if you would just indulge Mr. Vaughan to 
just answer quickly the question of what he has done with the 
assets that are needed, and the budget cuts. Thank you Mr. 
Vaughan.
    Mr. Vaughan. Yes, ma'am. Thank you Ms. Congressman.
    The questions you asked are two-fold. First, the 
measurement of our success on launching resources to assist 
Border Patrol, and the GAO report reference to some inability 
to do that. We have to understand that the missions are 
calculated, and based on success of being able to launch an 
aircraft to that particular mission. In some of these cases, we 
can control, and in some cases we cannot. I will cite as 
examples.
    Given bad weather, mechanical failures, et cetera there 
is--very similar to what the air carriers have issues with--a 
failure to be able to be able to launch and meet the 
requirement for that mission. That is recorded in our system. 
The things that actually air and marine can control in terms of 
percentages of missions lost in support of the Office of Border 
Patrol is around 7 percent.
    Those kind of issues would be related to: Are crewmembers 
available, are aircraft available, to support the mission as it 
has been asked? So that addresses the GAO report.
    The question on resources and availability. One thing that 
we have had occur over the last few years is the ability for 
the air-to-land integration to become more and more robust. 
There are pieces of equipment now in the interdiction model 
that are land-based. I give you the mobile surveillance 
systems, and the land port--or the land-based RVSS equipment--
where we had the ability to detect potential threats that 
aren't usually the aircraft themselves.
    Back when I had the pleasure of briefing you in Tucson, in 
Sierra Vista, on one occasion we talked about how the OH-6, the 
light observation helicopter that is Vietnam-era equipment that 
Border Patrol received, essentially went out on the patrol and 
did that detection themselves using the visual capabilities of 
the pilot. Now we have detection being done by the unmanned 
aircraft systems, detection being done by ground-based 
equipment, more unattended ground sensors.
    So the aircraft aren't out doing that particular type 
mission as much as they were before. So we are now going to 
more of a classification of a threat, a tracking of the threat, 
and an actual interdiction or apprehension of the threat.
    So yes, we are able to do more capabilities because the 
aircraft have been improved through additional sensor 
acquisitions, changing from the OH-6 light-observation 
helicopter to the more robust ASAR aircraft, of which we are 
receiving our 85th aircraft this year. I hope that addresses 
your questions.
    Ms. Jackson Lee. Let me just thank the Chairwoman. She has 
been just overly kind. I am going to submit additional notes 
that I would like to submit--additional questions, without 
objection--into the record, Madam Chairwoman.
    Mrs. Miller. Without objection.
    Ms. Jackson Lee. I would just acknowledge the Navy is in 
the house, as well. I see them, and just want to thank them for 
their service.
    I thank all the witnesses, and I will pursue Mr. Vaughan on 
that question. Thank you. I yield back.
    Mrs. Miller. I thank the gentlelady.
    The Chairwoman now recognizes the gentleman from Arizona, 
Mr. Quayle.
    Mr. Quayle. Thank you, Madam Chairwoman. I want to thank 
all the witnesses for being here.
    I want to kind of expand on what Mr. Cuellar was talking 
about. The concerns over a lack of a comprehensive strategy on 
the use of National Guard troops at the border, and the lack of 
a real long-term strategy on the Southwest Border as well. When 
is that going to be updated?
    Because when I am talking to, you know, with constituents 
in Arizona, one of the biggest issues is that with the ad hoc 
approach to the deployment of National Guard troops there is a 
ramp-up and ramp-down period. You can't just automatically 
deploy the number of troops that is called for at any given 
time. So he just would like to have more certainty, rather than 
getting up too close to that complete draw-down date and say, 
``Oh, actually we are going to redeploy these people because we 
need them at the Southwest Border.''
    I think that my biggest concern here is that when you look, 
we have a Presidential election that is going to be occurring 
real soon. We don't know who is going to be elected and whether 
they are going to have the same desire to combat the drug 
cartels in northern Mexico. So we don't know what is going to 
happen.
    A lot of people who have grave concerns about failed border 
security. So we have the draw-down that is going to be 
occurring. We are having the end of the aviation initiative at 
the end of the year. We don't have a long-term strategy. We 
don't have the fixed hours and integrated system up ready to be 
deployed.
    I agree with Mr. Vitiello who has improved CBP in the last 
few years, and that is great. But what are we going to be doing 
in the meantime before we can actually get that force 
multiplier up? That is my concern, especially with what is 
going to continue to happen with the drug cartels in northern 
Mexico.
    So Assistant Secretary Stockton, are you concerned about 
the ad hoc nature of the National Guard at the border? What do 
you think is going to be the best way to get that comprehensive 
strategy on whether we are using National Guard troops on a 
long-term basis? Or what is just the long-term strategy to have 
that comprehensive plan to actually secure our international 
borders?
    Mr. Stockton. Thank you. We support the Department of 
Homeland Security and CBP. One of the critical facilitating 
components of our transition from the old fixed-entry 
identification team approach to support to this mobile airborne 
surveillance and monitoring was clarification by CBP of how 
they could best utilize DOD assets. How we could best be in 
support of them in a more operationally and tactically-
effective support mission.
    We will continue to rely on DHS and CBP to build out the 
long-range strategy, and also to tell us how we can best be in 
support of them. We really depend on DHS and CBP because they 
are in the lead for border security to build their strategy and 
then come to us with requests for assistance that are then 
considered by the Department of Defense.
    That is the process, sir, by which we will be moving 
forward for any future consideration. We will wait for DHS and 
CBP to continue to refine any potential requests for 
assistance, and we will will welcome them then.
    Mr. Quayle. Okay. I think here is what I am trying to get 
at. We had a hearing just a few weeks ago in the full Committee 
for Homeland Security, and it is not just about the drug 
cartels that are wreaking havoc in northern Mexico. You have 
Hezbollah, who is in northern Mexico.
    We have grave National security threats and we are having 
draw-down of the National Guard, yet we don't have the 
implementation to fully secure our border when we do have these 
threats. So I would ask you, Mr. Vitiello, because I know you 
mentioned that there is going to be an updated strategy from 
CBP. Can you give us any indication of what new steps are going 
to be utilized to better increase the security of the long 
port?
    Chief Vitiello. A pleasure. So in 2004, when we realigned 
the National strategy for the Border Patrol, it focused on 
resources. We were in a situation where we needed to grow 
smartly within the Border Patrol. So the 2,000-force strategy 
focuses on personnel, technology, and infrastructure.
    Through the assistance of Congress and our own planning, we 
have done well on those accounts, right? The 6,000 new agents, 
the 1,000 that came to us again in 2010--infrastructure, as in 
fencing. Then we have the technology plan, specifically the 
lay-down for Arizona is, built and ready to deploy. Then we are 
doing that across the Southwest Border as well.
    So the new strategy focuses on refining the use of the the 
equipment that is at the disposal of CBP. So the pillars are 
for information, you know, getting ahead of the threat--
recognizing where the risks and vulnerabilities are, 
integration with all partners, including Mexico, Canada, State, 
local, Tribal, other Federal--and rapid response. Being able to 
proactively predict where threats may occur, where our 
vulnerabilities are and get to those locations along the 
border.
    So that is the highlight. It is a top view of the strategy. 
It is going to be very dependent for us, in communities along 
the Southwest Border, to engage the residents, communities of 
interest, the business community where they have trade with 
Mexico and their security regimes, and then integration across, 
including our continued collaboration with DOD. So that when we 
do make this equipment available, we know exactly where to put 
it and we can get ahead of the risks, and minimize the 
vulnerabilities that still exist.
    Mr. Quayle. Mr. Vitiello, but the cooperation with Mexico 
over the last few years has greatly increased.
    Chief Vitiello. Absolutely has, yes.
    Mr. Quayle. How much damage, or fallout, has there been 
from Operation Fast and Furious, which Mexico did not know 
about, which put thousands of guns into drug cartels' hands? 
How much has that damaged our relationship to be able to work 
with the Mexican authorities? Because they have lost a little 
bit of trust in us.
    Chief Vitiello. So I have been aware that my counterparts 
in the security forces--SSP in Mexico, with DOD--are 
collaborating with military-to-military information. That is 
not a subject of discussion at my level. I can tell you, from 
field reports, that sector chiefs are regularly communicating 
with their counterparts on the south side of the border.
    That is not a subject of discussion. There has not been a 
lack of engagement or enthusiasm to increase security in those 
locations because of that.
    Mr. Quayle. So not on other levels? [Inaudible].
    Chief Vitiello. No. I can speak to my own experience and 
the reports that I get. It is not a factor.
    Mr. Quayle. Okay, thank you.
    I yield back.
    Mrs. Miller. The Chairwoman now recognizes the gentleman 
from Arizona, Mr. Gosar.
    Mr. Gosar. Well, thank you, Madam Chairwoman, for allowing 
me to attend.
    Let me ask you, Secretary, just--do delays have 
consequences?
    Mr. Stockton. Delays, sir?
    Mr. Gosar. Delays in action. Do they have consequences?
    Mr. Stockton. They can, absolutely, sir.
    Mr. Gosar. Okay.
    Mr. Vitiello, do delays have consequences?
    Chief Vitiello. Again, yes, at times.
    Mr. Gosar. Mr. Vaughan?
    Mr. Vaughan. Yes, sir. I would agree.
    Mr. Gosar. Major Nichols?
    General Nichols. Yes, sir. They do.
    Mr. Gosar. Well, I am a businessman. I see that delays 
cause problems. Particularly along Arizona's Southern Borders, 
along the borders in all Southwestern States. We constantly see 
bureaucracy. Because if we really demanded having a National 
security strategy at our border we would get it done. I would 
almost say we are acting like the U.S. Senate.
    You know, we can do something very, very quickly. But in 
most cases, we can't even get anything done. That is my 
question. Do the people who live on the border in the United 
States demand the same kind of protection as somebody in, say, 
Wyoming or Massachusetts, Secretary?
    Mr. Stockton. Absolutely. But again, the Department of 
Defense is in support of CBP and the Department of Homeland 
Security for this mission. They have lead responsibility.
    Mr. Gosar. You know I never was in the military. But, you 
know, I am a leader, and I will bet you are too. That is what 
my last question was, delays. Should we be pushing our leaders 
from Homeland Security to be enacting a policy that actually 
works?
    Because we are seeing increased violence. We are seeing an 
increase in the National security threat. What it requires is 
leadership, and people in leadership to take an active stand. 
To push those leaders above us to make sure that we get 
something done. Would you not agree?
    Mr. Stockton. I believe that the relationship between DOD 
and DHS is the strongest I have seen in the 3 years I have had 
the honor of serving in office. We have the closest possible 
relationship of understanding exactly how we can provide 
support to CBP and DHS. These are conversations we have daily.
    Mr. Gosar. Then if you support it, why don't you support 
anything from this administration on cutting funding to the 
border? Why would you even say anything about the issue?
    Mr. Stockton. Well, I support the President's budget 
request.
    Mr. Gosar. Really? Okay.
    How do you feel about that, Mr. Viola?
    Chief Vitiello. Vitiello. Specifically which part?
    Mr. Gosar. Do you feel that we should be cutting this 
budget at this time? So we have a very secure border?
    Chief Vitiello. So I think that it is our responsibility 
within our charge and our duties--the duties that I carry out 
to be responsible with--with the funds that the taxpayers 
provide for us to do this work.
    Mr. Gosar. But you also took a pledge, did you not, to 
protect the Constitution and the people that the Constitution 
serves? Did you not?
    Chief Vitiello. I feel like I live up to that, and I do my 
best to live up to it.
    Mr. Gosar. Okay, my next question, if you are adequately 
providing those resources, shouldn't you be speaking up on 
behalf of additional resources?
    Chief Vitiello. In regards to the operation, we are funded 
an enormous amount at CBP to accomplish the mission.
    Mr. Gosar. Maybe debt. General, I know this is part of your 
dictation. Tell me that you need additional resources and 
additional manpower for the security of this country and those 
people on the border?
    General Nichols. Sir, I stand by my Governor, also. I 
already spoke. We need to get the counterdrug funding back in 
the budget. We have direct effects on America's security by 
having that force in place.
    By cutting it in half, we are going to to see a, I think, a 
linear relationship. We are going to lose that. In Texas, 
through our Operation Border Star we have got the BPS and the 
National Guard members, and our counterdrug members, operating 
on the border. Now, we are working with our CBP partners. 
Sometimes we are doing it on our own.
    You know, our Governor asked for a thousand troops on the 
border, and he hasn't backed down from that request. It is 
still sitting somewhere in the District of Columbia.
    Mr. Gosar. I think that brings me to my point. Is that, you 
know, that when a good man stays silent we only have evil to 
carry forward. That is what we have got here. Because you have 
an election next July 1 of this year--and Mr. Quayle actually 
alluded to it. You know, we could affect elections just by our 
mere presence.
    But when we do nothing, when we sit there and not advocate 
on behalf of what is actually going on there, that is 
disturbing. To even know that we don't have a problem and to 
see the resources. I mean, even by your own admission--you know 
I sit on Natural Resources--border officials basically report 
that we have only had operational control; 873 miles of a 
2,000-mile border.
    How in the heck can you not be asking for more? You know 
Secretary, that bothers me even more to say that we are going 
to live operationally with the President's budget. This is 
absurd. This is absolutely absurd. We actually post on our 
National Federal lands. We have opportunistic cells that 
understand that our Federal lands have to be ``treated 
differently along the border.'' Give me a break.
    What the American people want is to see leadership. What 
they want to do is, they want to see when you want, resources 
that you demand resources, and that you use your voice. Not 
squirmish around jurisdictions. Time is up. What is it going to 
take to get that? A National security event that we are 
unprepared for? We witnessed one.
    What is going to happen when we have an assassination 
attempt on the Saudi ambassador using drug cartels? I mean, we 
escaped, but what happens when one doesn't? Tell my ranchers 
and the landowners along that Southern Border it is a secure 
border. Give me a break. You ought to be demanding more 
resources, and telling the story like it is.
    I have been on that border, as well. I find it 
incomprehensible how the bureaucracy works. It ought to be 
lethal, it ought to be quick. They ought to be pulling 
jurisdictions back and forth. Those people on the Southwest 
Border deserve nothing less.
    I yield back my time.
    Mrs. Miller. The Chairwoman now recognizes the gentleman 
from Texas for a follow-on question.
    Mr. Cuellar. Yes, thank you. You know, we Members of 
Congress voted millions of dollars in cuts that we, as Members 
of Congress, cut that [Inaudible] difficult on that. I do want 
to say that the two areas that increased: The numbers in the 
military--homeland security is the second.
    But I do understand the frustrations that we all have to 
deal with. But I do understand cutting. It went from $2 
billion. There are cuts, which hits the military, Homeland. It 
hits everybody; we have to deal with that.
    My other question is: Can you--whatever type of law 
enforcement is already there, being from Texas--what sort of 
assets--I don't need you to say how many, but what sort of 
assets are you all bringing down to Texas with this operation? 
Can you tell me what you can say in public?
    General Nichols. Sir, this is for Phalanx 2?
    Mr. Cuellar. Yes.
    General Nichols. There are 12 Lakotas--UH-72 helicopters--
equipped with packages that can see daytime/nighttime, 
Saturdays, too--movements on the border or directly, working 
with Customs and Border Patrol. They don't just go out there 
and zoom back and forth. They are usually pinpointed. But 
occasionally, they go out and look to see what they see.
    But the operations are well done, well-coordinated. Like I 
said, we will see how that equates to how we did with the other 
boots-on-the-ground operation. It is certainly less costly but, 
you know, I can't tell you about the effectiveness of it.
    But that is what we have--12 helicopters, two different 
locations working anywhere from Brownsville up north to points 
south. I would rather not limit that by saying 24/7, 365.
    Mr. Cuellar. Helicopters and fixed-wing?
    General Nichols. Fixed-wing. Also the RC-26. That is 
another National Guard airplane. Fixing to lose that in 2015, 
though.
    Mr. Cuellar. Again, I have two points and then I will stop 
my questions. But one, I would ask you, please take a look at 
the GAO report. If anything, I think these officers should take 
a look at it and see what the folks have to say about, here are 
some of the issues that are being raised, No. 1.
    No. 2, I would, again strongly urge you all, before you 
leave the room today, to communicate with one another. Say, 
``Hey, this might be of interest to me, and all that.'' Again I 
say that, you know, you all have been doing a great job. I am a 
big supporter. You understand, we set the budget, we cut. 
Therefore, you gotta deal with resources at hand, and you can't 
lobby us for more money.
    So, you know, we make the cuts and I understand that and it 
is a very difficult situation. But with whatever equipment we 
have out there, let us try to maximize our efforts to more 
risk-based, more intelligence-driven areas. In that, I would 
ask you to talk to each other before you all leave.
    Let me just say, I appreciate all of the good work all of 
you all are doing, and the men and women that are out there, 
working along the border. I live on the border, I know the work 
that you all are doing, and you all have been doing a great 
job. Thank you very much. God bless.
    Mrs. Miller. I thank the gentleman.
    I certainly want to thank everyone, all of the witnesses, 
that we have today. Your testimony has been very good, and I 
think we have had some excellent questions from the Members 
here as well. So we all want to work together. Certainly, on 
behalf of myself and the Ranking Member and everybody in our 
subcommittee, we look forward to working with all of you for 
our mutual goal--securing our border.
    Again, I want to thank you for incredible work and the 
professionalism of all of you and the brave men and women that 
you represent here today, and the work that is being done. 
Thank you for your service to the Nation every day.
    The hearing record will be open for 10 days. If Members 
have additional questions, they will be able to submit those 
for the record. With that, I will adjourn the subcommittee. 
Thank you very much.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Ranking Member Sheila Jackson Lee for Martin E. Vaughan
    Question 1. A recent Government Accountability Office report 
concluded that CBP's Office of Air and Marine has been unable to meet 
its own benchmarks for fulfilling the Border Patrol's requests for air 
support along the Southwest Border. CBP Air and Marine has suffered 
some significant budget cuts in recent years.
    To what extent are these budget cuts responsible for this gap in 
capacity to provide support?
    Answer. Since the merger of the legacy U.S. Border Patrol (OBP) and 
U.S. Customs Service aviation programs under CBP in 2005, the Customs 
and Border Protection Office of Air and Marine (OAM) has dramatically 
increased efficiency and effectiveness of CBP air operations in support 
of the Department of Homeland Security and its international, Federal, 
State, local, and Tribal partners. Most of these efficiencies were 
captured through the acquisition of technologies that then drove or 
facilitated changes in CBP air operations including decreased 
operations cycle time, effective asset procurement/modernization, and 
innovative sensor system integration. These operations developments 
have then resulted in expanded mission functionality, vastly improved 
detection capability, real-time customer support/interface, decreased 
mishaps and system downtime, and consequently provided a significant 
increase in overall CBP aviation mission effectiveness.
    The CBP Office of Air and Marine (OAM) recapitalization plan is 
nearly complete, with more than $1 billion appropriated by Congress 
from fiscal year 2006 through fiscal year 2012 to accomplish the 
objectives laid out in our long-range plan to replace/upgrade CBP's 
aging fleet of aircraft. The force that will support border security 
operations in fiscal year 2013 will be much more flexible, more 
capable, and will generate greater results per flight hour, enabling 
DHS to achieve its highest-priority missions within the budget 
requested by the President.
    Question 2. Is it possible for CBP Air and Marine to improve its 
ability to provide support by repositioning its assets or taking other 
similar, lower-cost measures?
    Answer. The CBP Office of Air and Marine (OAM) will not be able to 
increase its rate of response to support requests by repositioning its 
assets or similar, lower-cost measures. CBP continues to ensure OAM 
resources are deployed to the highest priority locations as efficiently 
and effectively as possible without creating additional border security 
vulnerabilities.
    CBP utilizes a robust process to allocate its personnel, aircraft, 
marine vessels, and funding for fuel that supports its aviation flight 
and marine underway hours. Deployment decisions are made based on 
assessing a wide range of information. This comprehensive and 
collaborative process includes consideration of current operational 
capability and capacity; threats and challenges; actionable 
intelligence; operational coordination with the Border Patrol; formal 
discussions of annual Border Patrol requirements; asset acquisitions, 
maintenance, and requirements; operational initiatives and priorities; 
quarterly performance reviews, which include applicable data on 
results; and other evolving factors. Operating within its resource 
capacity, this process enables OAM to provide an agile, efficient, and 
effective response to emerging developments.
    Question 3. Is there a point at which it becomes impossible to do 
more with less?
    Answer. There is a minimum set of resources needed to provide the 
maintenance support, logistics, skilled personnel, support equipment, 
consumable supplies, and infrastructure required for a modern, 
effective air service. However, Congress has actively supported the 
CBPs aged aircraft recapitalization program, which has produced a more 
flexible and capable force over the past 6 years. With the additional
effectiveness gained through the multi-year investments, CBP will be 
able to support the Department's highest-priority missions within the 
resource levels requested in the President's budget.

                                 <all>

</pre></body></html>
